<html>
<title> - MUSIC VIOLENCE: HOW DOES IT AFFECT OUR CHILDREN</title>
<body><pre>[Senate Hearing 105-395]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 105-395


 
            MUSIC VIOLENCE: HOW DOES IT AFFECT OUR CHILDREN

=======================================================================

                                HEARING

                               before the

                      SUBCOMMITTEE ON OVERSIGHT OF

                 GOVERNMENT MANAGEMENT, RESTRUCTURING,

                      AND THE DISTRICT OF COLUMBIA

                                 of the

                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 6, 1997

                               __________

      Printed for the use of the Committee on Governmental Affairs


                               <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 45-594 cc                   WASHINGTON : 1998
_______________________________________________________________________
           For sale by the U.S. Government Printing Office, 
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402


                   COMMITTEE ON GOVERNMENTAL AFFAIRS

                   FRED THOMPSON, Tennessee, Chairman
SUSAN M. COLLINS, Maine              JOHN GLENN, Ohio
SAM BROWNBACK, Kansas                CARL LEVIN, Michigan
PETE V. DOMENICI, New Mexico         JOSEPH I. LIEBERMAN, Connecticut
THAD COCHRAN, Mississippi            DANIEL K. AKAKA, Hawaii
DON NICKLES, Oklahoma                RICHARD J. DURBIN, Illinois
ARLEN SPECTER, Pennsylvania          ROBERT G. TORRICELLI,
BOB SMITH, New Hampshire               New Jersey
ROBERT F. BENNETT, Utah              MAX CLELAND, Georgia
             Hannah S. Sistare, Staff Director and Counsel
                 Leonard Weiss, Minority Staff Director
                    Michal Sue Prosser, Chief Clerk

                                 ------                                

SUBCOMMITTEE ON OVERSIGHT OF GOVERNMENT MANAGEMENT, RESTRUCTURING, AND 
                        THE DISTRICT OF COLUMBIA

                    SAM BROWNBACK, Kansas, Chairman
ARLEN SPECTER, Pennsylvania          JOSEPH I. LIEBERMAN, Connecticut
ROBERT F. BENNETT, Utah              MAX CLELAND, Georgia
                        Ron Utt, Staff Director
      Laurie Rubenstein, Minority Staff Director and Chief Counsel
                      Esmeralda Amos, Chief Clerk



                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Brownback............................................     1
    Senator Lieberman............................................     3

                               WITNESSES
                       Tuesday, November 6, 1997

Hon. Kent Conrad, A U.S. Senator from the State of North Dakota..     6
Raymond Kuntz, Parent, Burlington, North Dakota..................     8
Dr. Frank Palumbo, on behalf of the American Academy of 
  Pediatrics, Washington, DC.....................................    15
Hilary Rosen, President and Chief Executive Officer, Recording 
  Industry Association of America, Washington, DC................    18
C. DeLores Tucker, Chair, National Political Congress of Black 
  Women, Inc., Silver Spring, Maryland, accompanied by Chad Sisk, 
  Philadelphia, Pennsylvania.....................................    30
Donald F. Roberts, Thomas Moore Stork Professor of 
  Communications, Stanford University............................    35

                     Alphabetical List of Witnesses

Conrad, Hon. Kent:
    Testimony....................................................     6
Kuntz, Raymond:
    Testimony....................................................     8
    Prepared statement with attachments..........................    43
Palumbo, Dr. Frank:
    Testimony....................................................    15
    Prepared statement...........................................    55
Roberts, Donald F.:
    Testimony....................................................    35
Rosen, Hilary:
    Testimony....................................................    18
    Prepared statement with attachments..........................    61
Tucker, C. DeLores:
    Testimony....................................................    30
    Prepared statement...........................................    83

                                APPENDIX

Prepared statements of witnesses in order of appearance..........    43


            MUSIC VIOLENCE: HOW DOES IT AFFECT OUR CHILDREN?

                              ----------                              


                       THURSDAY, NOVEMBER 6, 1997

                                               U.S. Senate,
             Oversight of Government Management, Restructuring,    
                     and the District of Columbia Subcommittee,    
                        of the Committee on Governmental Affairs,  
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 12:11 p.m., in 
room SD-342, Dirksen Senate Office Building. Hon. Sam 
Brownback, Chairman of the Subcommittee, presiding.
    Present: Senators Brownback and Lieberman.
    Also Present: Senator Ashcroft and Senator Conrad.
    Staff Present: Cherie Harder, Michael Rubin and Esmerelda 
Amos (Senator Brownback); Dan Gerstein (Senator Lieberman); and 
Bob Foust (Senator Conrad).

             OPENING STATEMENT OF SENATOR BROWNBACK

    Senator Brownback. The hearing will come to order.
    Good afternoon. I would like to thank everybody for 
attending, particularly my good friend, Senator Lieberman, who 
will be our first panel presenter and is also ranking on this 
Subcommittee.
    I would also like to recognize the attendance of Senator 
Kent Conrad from North Dakota--one of whose constituents will 
be testifying today--and Senator John Ashcroft, who has an 
interest in this topic--and a singer as well.
    This is a very serious hearing, although I want to make 
certain at the outset that everyone knows that this is not a 
legislative hearing. There are no bills to be discussed today. 
This is purely an informational hearing. The purpose of this 
hearing is to gather information and to give a public hearing 
to what I and many others consider a very important public 
issue.
    In a book I am reading on Abraham Lincoln, the author 
states, ``Who writes the Nation's songs shapes the Nation's 
souls.'' And if that is not true in whole, it is certainly true 
in part.
    The title of this hearing is ``Music Violence: How Does It 
Affect Our Youth?'' The question is an important one. Today's 
teens face far more difficulties and dangers than their 
counterparts did just a generation ago. Over the last 30 years, 
violent juvenile crime has jumped by more than 500 percent. 
Teen suicide has tripled. Unwed teen pregnancy has skyrocketed. 
And casual drug use among teens has jumped nearly 50 percent 
over the last 4 years alone. Such trends are especially 
dramatic in Washington, D.C., which is the area of jurisdiction 
of this Subcommittee. District of Columbia juve- 
nile crime, teen death, and teen drug use rates lead the 
Nation. Nowhere in America does the presence of actual and 
virtual violence stand out so starkly. It is tragic, but true, 
that by most indicators of youth and teen well-being, we as a 
Nation have lost ground.
    There is also a sense that we have lost ground in ways that 
defy easy measurement. There is a feeling, in the District of 
Columbia and across the country, that we as a society have 
grown coarser, meaner, and more alienated. Violence seems not 
only more widespread but less shocking. We have become more 
accustomed to tragedy, violence, and hate.
    At the same time, there has been a marked increase in 
explicit violence and misogyny in popular music. Of course, 
correlation is not causation. Music is but one part of our 
popular culture. Whatever impact music has on youth behavior is 
bound to be complex and variant. But the best way to determine 
what that impact is, what influence violent lyrics exert, and 
how such lyrics fit into the cumulative impact of popular 
entertainment on our modern sensibility is to encourage 
research, debate, and discussion. Such an important public 
issue merits public inquiry.
    The most important and appropriate place to begin that 
inquiry is with the music itself. Although there have always 
been popular songs of questionable taste or dubious merit, over 
the past several years, there has been a marked increase in the 
number of exceptionally violent, hateful, crude, racist, 
brutal, anti-woman songs that are not only out in the market, 
but in many cases, are topping the charts.
    Recent best-selling albums have included graphic 
descriptions of murder, torture, and rape. Women are 
objectified, often in the most obscene ways. Songs such as--and 
please pardon my language here--``Don't Trust a Bitch'' by the 
group Mo Thugs or ``Slap a Ho'' by Dove Shack actively 
encourage animosity and even violence towards women. Shock-rock 
singers like Cannibal Corpse go even further, with lyrics 
describing rape and torture, such as Cannibal Corpse's song 
``Stripped, Raped and Strangled.'' Given that the average teen 
listens to music around 4 hours a day, it appears young fans of 
such music will spend a good chunk of their formative years 
tuning into messages of violence and hate.
    It is also worth noting that while teens spend 
progressively more time tuned in to music, they are spending 
less time with their parents. In fact, a recent Carnegie 
Foundation study found that the average teen spends only 20 
minutes a day alone in conversation with his or her mom and 
less than 5 minutes a day alone with dad. The average American 
teens spends far more time listening to music than listening to 
mom or dad. For the single parents who struggle valiantly to 
juggle the demands of earning a living and raising a family, it 
can be especially difficult to find the time to monitor the 
music their children listen to. The result is that more 
children are spending more time alone with music, with less 
parental oversight and involvement.
    Of course, the majority of popular music does not contain 
violent or misogynistic lyrics. Our concern is not with popular 
music, or even with a particular genre, such as rock or rap. 
Our concern is with those songs that do glorify violence, 
racism, murder and may- 
hem, and condone the abuse of women. That is the target of what 
the informational hearing that we have here today is about.
    It stands to reason that prolonged exposure to such hate-
filled lyrics during the formative teen years could have an 
impact on one's attitudes and assumptions, and thus decisions 
and behavior. Understanding the nature and extent of the 
influence of music violence may well be the first step towards 
better addressing the problems and pathologies besetting our 
youth, and our best hope for ensuring a more civil society and 
helping our young people.
    I am delighted that Senator Joe Lieberman, Democrat from 
Connecticut, who also serves as ranking minority on this panel, 
will be our lead-off witness. This has been close to his heart 
for some period of time. He has led the national debate on it.
    Senator Lieberman, I am honored to serve with you, and I am 
honored to welcome you as the first presenter.

             OPENING STATEMENT OF SENATOR LIEBERMAN

    Senator Lieberman. Thank you very much, Mr. Chairman, 
Senator Ashcroft. Thank you, Senator Brownback, for your 
leadership here, for your kind words, of course, but for 
reviving again a dialogue begun back a ways by Bill Bennett and 
DeLores Tucker. And I appreciate very much the substance and 
the tone of your opening remarks and for asking me to come to 
this side of the table and begin as a witness, and then I look 
forward to joining you and hearing the other witnesses, because 
you have brought together a very balanced and important group 
of witnesses.
    Mr. Chairman, in taking stock of our social environment in 
America today, it is hard not to notice a surreal quality. The 
fact is that our children are often better armed than our 
police people. We throw new bouquets of celebrity at the feet 
of luminaries like Dennis Rodman with each brazen elbow he 
throws at an opponent or at a cameraman. And we don't seem to 
blink when corporate citizens sell music to our children that 
celebrates violence, including the murder of police and gang 
rape, and sexual perversity, including pedophilia.
    Surreal though it seems, these cultural indicators have 
very real implications. They bespeak a breakdown in the old 
rules and limits that once governed our public and private 
lives and the way we raised our children. We are left, I am 
afraid, with a values vacuum, in which our children learn more 
and more that anything goes and which I believe is at the heart 
of some of our society's worst social problems. The culture has 
consequences on behavior.
    This vacuum is troubling in its own right. It is all the 
more profoundly unsettling when we consider what is filling it 
these days. The new values transmitters in our society are not 
what they used to be: Mother, father, teacher, principal, 
clergyman or clergywoman. The new values transmitters are 
increasingly the producers of television shows and movies, the 
fashion advertisers, the producers of video games, and, as you 
are focusing on today, the gangsta rappers and shock rockers, 
the whole host of players within the electronic media cultural 
complex.
    These are trend setters. They exert an extremely powerful 
hold on our children because of the impact they have on our 
culture. And I am afraid that I have to say that they too often 
exhibit little sense of responsibility for the messages that 
they are purveying.
    As a result, the marketplace is flooded with too many 
violent and perverse television shows, shows like Fox's ``When 
Animals Attack,'' which degradingly treats real life terror as 
a form of entertainment; video games like ``Postal,'' which is 
marketed by Panasonic, in which the player is cast as a 
deranged gunman trying to wipe out an entire town and whose 
marketing brochure promises, ``Chilling realism as victims 
actually beg for mercy, scream for their lives, and pile up on 
the streets,'' and the awful ads of Calvin Klein, which told a 
generation that is warming up again to heroin that it is cool 
to look and be strung out. These all have consequences on those 
who hear, who play, who listen, and who watch.
    The music lyrics that you are focusing on here today are of 
a piece with these messages I have just described, and in many 
cases, they are just as reprehensible.
    Perhaps what I am about to say ought to have a parental 
advisory attached to it. Consider a song like ``Slap a Ho,'' 
which you mentioned, by the group Dove Shack, distributed by a 
large and respected company, Polygram, which touts the virtue 
of a machine that automatically smacks a wife or girl friend 
into line. Or the vile work of the death metal band, Cannibal 
Corpse, distributed through a Sony subsidiary, another great 
company, which recorded one song describing the rape of a woman 
with a knife and another describing the act of masturbating 
with a dead woman's head.
    I apologize for expressing--describing these lyrics, but 
this is what we are talking about. We are not overstating. This 
is extreme, awful, disgusting stuff that millions of kids are 
listening to. These songs, and others like them, contain some 
of the worst thoughts and pictures and activities that I have 
ever heard. But they are more than offensive. When combined 
with all the murder and mayhem depicted by the whole gamut of 
media, they are helping to create a culture of violence that is 
increasingly enveloping our children, desensitizing them to 
consequences, ultimately cheapening the value of life, and I am 
convinced is a part of what you have described, which is the 
remarkable increase in youth violence, even as criminal 
violence in our society generally decreases.
    You will hear testimony today about what social science can 
tell us about the impact that violent and antisocial music has 
on its listeners. I want to suggest that we also should take a 
look at the real life experiences in the world of gangsta rap, 
that segment of the music industry that has truly glorified 
murder and mayhem on CDs, but also, tragically, has then lived 
it in the streets.
    The story of Tupac Shakur is well known. He and many other 
rappers recorded rhymes that helped to make killing 
fashionable, and it was the same kind of gangsterism they 
celebrated that claimed Shakur's own life and that of others 
and has landed several other rappers in jail. Before he was 
killed, Tupac Shakur himself said he went beyond representing 
violence: ``I represented it too much. I was thug life.''
    Now, this music, reinforced by television through MTV and 
other music channels that present the gangster life as the high 
life, has spawned its own subculture, setting standards for how 
to dress, how to treat women, and how to resolve conflict--too 
often violently. We are just learning, though, about what 
appears to be a very real criminal connection within elements 
of the rap industry: Links to racketeering, money laundering, 
gang violence, and drug running.
    Death Row Records, which gave us Tupac and Snoop Doggy 
Dogg, and which was in business first with Time Warner--which 
then separated itself, to its credit--and then with Seagrams, 
is now the subject of an extensive Federal investigation 
involving the FBI, DEA, and the IRS. Among other things, these 
authorities are examining Death Row's ties to a man named 
Michael Harris, reputed to be one of Los Angeles' most 
notorious crack dealers. Harris is now serving a 28-year prison 
terms and claims he provided more than $1 million, probably the 
proceeds of drug sales, in seed money to launch Death Row 
Records. The FBI reportedly is looking into alleged connections 
between Death Row and its president, Suge Knight, and organized 
crime families in New York and Chicago.
    Mr. Chairman, there is enough evidence here that I think we 
may want to pursue this connection in more depth, either at 
this hearing or afterward.
    But for today, I thank you again for reviving the dialogue 
begun by Bill Bennett and DeLores Tucker. It is one that we 
desperately need to have. It is unfortunate that folks in the 
music industry, which is mostly a very constructive, elevating 
industry, have refused, I think, to adequately acknowledge our 
real concerns about this awful gangsta rap and shock-rock music 
that they produce. Often we have heard that a record never 
killed anyone or we are casually dismissed as prudes or 
censors. That I think has got to stop. The men and women who 
run the large corporations who turn out this music must stop 
hiding behind the First Amendment and confront the damage 
some--and I emphasize some--of their products are doing.
    We are not talking here about censorship, but about 
citizenship. You and I are not asking for any government action 
or bans. We are simply asking whether it is right for a company 
like Sony, for example, to make money by selling children 
records by the likes of Cannibal Corpse. We are asking why 
another great company like Seagrams is continuing to associate 
itself with Marilyn Manson and the vile, hateful, nihilistic, 
and, as you will hear from Mr. Kuntz, dangerously damaging 
music, Marilyn Manson records.
    By raising these questions, engaging in this dialogue, and 
hopefully informing parents about the kind of music their 
children may be listening to, I hope that we can make some real 
progress in dealing with this problem, because I think it is 
related to some of our country's worst crises.
    I hope the corporate leaders of the industry, after hearing 
our pleas for them to exercise some responsibility, will 
consider adopting basic standards themselves for the music they 
choose to sponsor, to draw some lines they will not cross just 
to make more money, because on the other side of those lines is 
damage to our country and our children and ultimately to 
themselves. I hope particularly that Seagrams will start by 
disassociating itself from Marilyn Manson.
    In the meantime, I hope that the RIAA will consider 
improving its one-size-fits-all labeling system so that at a 
minimum parents can have more basic information that they need 
to make wise judgments with and for their children about what 
music they will listen to.
    Mr. Chairman, I thank you again for coming back to this 
critical topic. I am happy to answer questions, but, more 
likely, I look forward to joining you and listening to and 
questioning the other, quite impressive group of witnesses that 
you have called to this Subcommittee hearing. Thank you.
    Senator Brownback. Thank you very much, Senator Lieberman. 
I want to again say I appreciate your leadership, and I thought 
you had some very thoughtful suggestions here of voluntary 
actions by some of the corporate leaders. I hope that what we 
can do with this informational hearing--and as we both have 
stated, we are not considering legislation, and neither of us 
supports censorship. There is the First Amendment. But I hope 
that the industry itself will look, and I hope we could start a 
dialogue of parents with their children about what are they 
listening to and have a discussion that can happen there, as 
everybody gets more enlightened about what this music is. And I 
hope that can be a product of this hearing.
    Senator Lieberman. Thank you.
    Senator Brownback. Senator Lieberman, I appreciate that. 
Please join us here.
    We will call up now the second panel: Raymond Kuntz, who is 
a parent. Mr. Kuntz's 15-year-old son, Richard, killed himself 
last December while listening to Marilyn Manson's music.
    Also on the second panel will be Dr. Frank Palumbo. Dr. 
Palumbo is a practicing pediatrician in Washington, D.C., and 
is representing the American Academy of Pediatrics. And as I 
believe--Kent Conrad, will you be joining Mr. Kuntz at the 
witness table? If we could have those witnesses please come 
forward.
    Let me say, as we get the panel in position, I very much 
appreciate each of you coming forward and being willing to 
testify today. I know particularly, Mr. Kuntz, in your case--
and we have had the pleasure of being able to visit before this 
hearing--this is a very difficult and a very emotional subject 
for you. And I know this is very, very hard on you. Let me just 
say I appreciate you being here and being willing to speak with 
clarity on this subject.
    Might I turn to Senator Conrad, if you would care to 
introduce Mr. Kuntz to the panel.

TESTIMONY OF HON. KENT CONRAD, A U.S SENATOR FROM THE STATE OF 
                          NORTH DAKOTA

    Senator Conrad. Thank you, Mr. Chairman. I want to join 
what others have already said in thanking you for holding this 
hearing and thanking you for putting the focus on something 
that is important, something that is making a difference in the 
lives of people in this country, and in this case, it is not a 
positive difference. It is a negative difference.
    Thank you, too, for the balance of your statement because I 
think it is critically important that people who are listening 
understand. We are not talking about censorship. We are not 
talking about vio- 
lating the First Amendment. We are talking about moral issues. 
We are talking about things that are critically important to 
the fabric of our society.
    I, too, want to thank Senator Lieberman for his long-term 
leadership on this question, along with DeLores Tucker and 
others who have been involved with it. Senator Lieberman was a 
cosponsor with me on legislation that I offered in the name of 
the Citizens Task Force on TV Violence, some 28 national 
organizations that I have worked with over a number of years to 
try to have an impact on reducing media violence.
    Most of our focus has been on television violence, but 
these parents are also concerned about violence that is being 
transmitted in tapes, over the radio, through CDs, to our 
children.
    Mr. Chairman, if you listen to some of the lyrics or you 
read some of the lyrics, it is shocking because they clearly 
are promoting violence against women, violence against police 
officers, and even teen suicide. It is hard to believe, but it 
is true. It is happening, and it ought to be condemned.
    Now, I heard a media report this morning that suggested 
those of us who say there is something wrong here are 
advocating censorship. In fact, the report suggests that we 
were interested in regulating the content of musical performers 
and those who write the music that they perform. That is 
absolutely untrue.
    As the Chairman has indicated, there is not a specific 
legislative proposal before this panel. This is an attempt to 
educate, to reach out and to have a national debate and 
discussion about something that is hurting our children. This 
Subcommittee and this Chairman and the ranking member ought to 
be commended for what you are trying to do.
    Mr. Chairman, I believe, after reviewing these lyrics--this 
represents a small part of what the industry is producing. We 
recognize that. Much of what is being produced is wonderful and 
elevates our society, and we thank the industry and the 
performers for that. But the truth is there is also a small 
part of what is being produced that is morally reprehensible, 
that is socially irresponsible, and that is completely 
unacceptable.
    And just as those who advocate this music as a First 
Amendment right to produce and perform these lyrics, we too 
have a First Amendment right to stand up and condemn--and I use 
that word advisedly--to condemn lyrics that are morally 
reprehensible, socially irresponsible, and completely 
unacceptable.
    Mr. Chairman, I met earlier this year with several members 
of the recording industry, and I am not persuaded that they 
understand the full impact of these lyrics on our young people. 
Nor am I persuaded that they are prepared to responsibly 
address the concerns of parents all across America.
    Today I am very honored to accompany and welcome a North 
Dakota parent, Ray Kuntz, of Burlington, North Dakota, who will 
express his deep concern over this music and its impact on 
children. Ray lost a son to suicide. On December 12, 1996, his 
son was listening to ``The Reflecting God'' on Marilyn Manson's 
CD entitled ``Antichrist Superstar.'' I think as the Chairman 
and the ranking member know, Marilyn Manson is a composite 
name. It combines Marilyn Monroe, who committed suicide, with 
Charles Manson, who is a mass murderer. I think that in itself 
says something about the mind-set of the performer.
    Now, I understand fully this performer has the right in our 
country to write any music that he chooses, to have it produced 
and have it promoted. I understand that. I also understand that 
the companies who pay for that promotion have a moral 
responsibility and a social responsibility, and I hope that if 
nothing else is accomplished today that somewhere in some 
executive suite someone will hear a word of what we are 
discussing here today and raise the question, Gee, is this 
really what we want to be promoting in our company? Is this 
really what we want to be the result of our efforts and 
energies?
    Mr. Chairman, I know that Ray Kuntz wants to share a 
message with you and other Subcommittee Members regarding this 
personal tragedy. In this regard, I want to take just a moment 
to read one paragraph from a letter that Ray shared with me 
earlier this year.
    In that letter, Ray Kuntz wrote: ``[T]his music, because it 
glorifies inhumane intolerance and hate, and promotes suicide, 
contradicts all of the community values that people of good 
will, regardless of faith, ideology, economic or social 
position, share. Simply put, this music hurts us as a people. 
Our children are quietly being destroyed (dying) by . . . ones 
and twos in scattered isolation throughout our Nation today.''
    I don't think any professional writer could have put it any 
better than Ray Kuntz did. Let me just say that I am profoundly 
proud of Ray Kuntz and his courage and his willingness to come 
forward to share a personal tragedy so that others might learn 
from it.
    Thank you, Mr. Chairman. Thank you, Senator Lieberman.
    Senator Brownback. Thank you very much, Senator Conrad, for 
a very good statement, which helps articulate what we are 
trying to do and the information we are trying to put forward.
    Mr. Kuntz, you honor us by coming forward with your bravery 
to talk about this tragedy. Welcome to the Subcommittee, and we 
would like to hear your testimony.

TESTIMONY OF RAYMOND KUNTZ,\1\ PARENT, BURLINGTON, NORTH DAKOTA

    Mr. Kuntz. Thank you, Mr. Chairman Brownback and Members of 
the Senate Subcommittee. Thank you for extending the invitation 
to address you today, and a special thank-you to you, Senator 
Conrad, for your kind introduction.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Kuntz with attachments appears in 
the Appendix on page 43.
---------------------------------------------------------------------------
    For the record, my name is Raymond Kuntz, and our family 
calls Burlington, North Dakota, home. I have traveled to 
Washington, D.C., from there today to speak to you all 
regarding an issue that has changed our lives forever: Violent 
music's impact on our children.
    On the morning of December 12, 1996, as part of our 
family's normal daily behavior, my wife started our son's 
shower for him and then went to wake him. But Richard, our son, 
was not sleeping in his bed. He was dead. He had killed 
himself. Richard has left us, and he is never coming back.
    Please listen to what Richard heard as he died, hear what 
was in his mind, the lyrics to Marilyn Manson's ``The 
Reflecting God'' from the CD titled ``Antichrist Superstar.''
    ``Your world is an ashtray/We burn and coil like 
cigarettes/The more you cry your ashes turn to mud/Its the 
nature of the leeches, the Virgin's feeling cheated/You've only 
spent a second of you're life/My world is unaffected, there is 
an exit here/I say it is and then it's true, there is a dream 
inside a dream/I'm wide awake the more I sleep/You'll 
understand when I'm dead/I went to God just to see, and I was 
looking at me/Saw heaven and hell were lies/When I'm God 
everyone dies/Scar, can you feel my power?/Shoot here and the 
world gets smaller/Scar/Scar/Can you feel my power/One shot and 
the world gets smaller/Let's jump upon the sharp swords/And cut 
away our smiles/Without the threat of death/There's no reason 
to live at all/My world is unaffected, there is an exit here/I 
say it is and then it's true/There is a dream inside a dream/
I'm wide awake the more I sleep/You'll understand when I'm 
dead.''
    Dear sirs, my son was listening to Marilyn Manson's 
``Antichrist Superstar'' on his stereo when he died--I 
personally removed that CD with the red lightning bolt on it 
from his player the next day--with the rough draft of an 
English class paper about this artist that had been returned to 
him that very day for final revisions, on the stand next to his 
body. Richard's friends tell us that in the end this song, 
``The Reflecting God,'' from that CD was his favorite song. 
They say that this song was what he always seemed to be 
listening to whenever they came over, and the lyrics of that 
song read as an unequivocally direct inducement to take one's 
own life.
    If you do not believe me, listen to the bridge in the 
chorus of ``The Reflecting God'' as performed, not as written 
in the liner notes: ``Each thing I show you is a piece of my 
death''; ``One shot and the world gets smaller''; ``Shoot here 
and the world gets smaller''; ``Shoot shoot shoot motherfucker/
Shoot shoot shoot motherfucker''; ``No salvation, no 
forgiveness/This is beyond your experience''; ``No salvation, 
no forgiveness, no salvation.''
    Gentlemen, we are all certainly free to make our own 
decisions regarding the value of content. But if you were to 
ask me, I would say that the lyrics to this song contributed 
directly to my son's death.
    Additionally, two of my son's friends, who have been 
treated for attempted suicide since his death, are and were 
caught up in Marilyn Manson's fearful, frightening music and 
are still considered to be at risk.
    Sirs, this music, because it glorifies intolerance and 
hate, and promotes suicide, contradicts all of the community 
values that people of good will, regardless of faith, ideology, 
race, economic or social position, share. Simply put, this 
music hurts us as a people. Our children are quietly being 
destroyed (dying), by this man's music, by ones and twos in 
scattered isolation throughout our Nation today.
    This artist's own words, in his lyrics and interviews, and 
his actions, indicate that this injury to society is 
intentional. The predatory world that Brian Warner markets, 
through his stage persona as Marilyn Manson, is a world no 
normal person would wish to live in.
    Brian Warner's band members have adopted androgynous, two-
part stage names, the first part derived from a female 
celebrity and the second part from a convicted male mass 
murderer. And Brian got lucky; as the lead, he got to pick 
``Marilyn'' from Marilyn Monroe, the female celebrity who 
committed suicide, and ``Manson'' from Charles Manson, mass 
murderer.
    By their natures, corporations do not have consciences, and 
it is understandable that MCA would wish to defend a product 
that entered the Billboard 200 chart at No. 3. But even though 
they are soulless, corporations do have social obligations and 
responsibilities.
    I understand that the lyrics to individual songs and the 
content of interviews made by artists with obscure magazines 
and newsletters are below a CEO's event horizon. But somewhere 
down the hierarchy line, someone who is aware of both artistic 
content and stated intent is making corporate economic 
decisions driven by greed that kill. Corporate decisionmaking 
that kills.
    Shaming major corporations into more responsible behavior 
is good. But forcing a corporation to divest itself of a 
socially unacceptable, still functional subset, possibly at a 
profit, does nothing to rectify the problem or wash clean the 
hands of those involved.
    From my experience, and based on the fact that you have 
seen the need to convene this hearing, there is no question in 
my mind that the damage that this music is doing to our 
children is a serious problem in our country today.
    I believe we need to make the voluntary RIAA parental 
advisory sticker program mandatory so that parents, moms and 
dads, can better monitor their children's listening to help 
keep dangerous materials out of their hands.
    From what my family has experienced, this music is a cancer 
on our society. I have given you my ideas of what we can do to 
solve this problem and stress that we must act as a people to 
protect our children from the twin evils of murder and suicide.
    Sirs, if there is anything you can do about this problem, 
my wife, Christine, and I are ready to help you in any way that 
we can.
    Thank you.
    Senator Brownback. Thank you, Mr. Kuntz, for your very 
touching testimony, and thank you for your courage at being 
here.
    I understand that your son, as you stated in your 
testimony, was doing a paper for his English class on Marilyn 
Manson?
    Mr. Kuntz. Yes, he was.
    Senator Brownback. Could you or would you care to share any 
of the thoughts that your son was writing at that time in that 
English paper?
    Mr. Kuntz. If my son were still alive today, I would say 
that I believe from the contents of this paper that he was 
starting to mature, even though it is in a school boy's 
language, that he was starting to mature intellectually and was 
beginning to grasp and understand social values that we all 
share, because the paper addresses these kinds of things. But 
my son is dead, and I really do not know what to think of this 
paper.
    A line from the paper: ``His album projects an image of 
hate towards the Christian community, and the drugs he uses 
publicly are mind-degrading.''
    ``Throughout his set, he rips and tears at his jagged 
clothes until naked except for a leather jockstrap. Then he 
grabs a bottle, breaks it over his head, and invites the crowd 
to shower him in spit.'' In a world of AIDS, is that a wise 
idea?
    ``Manson's second album `Smells Like Children' is a tribute 
to two tracks, `abuse' (part one and two) and `confusion' which 
were on the original cut but were . . . taken off the album 
before it was distributed. Manson explains the reason for this 
in an interview with Rudolf `both tracks' featured 
collaborations done sometime last year with a guy named Tony 
Wiggins. It involved illegal activities.''
    My son's closing: ``Through the tolerance of `evil' groups 
such as Marilyn Manson, many children's minds are being 
degraded. Marilyn Manson shows that it is possible for a 
Christian society to produce somebody who is against everything 
it stands for. Believing that what he is doing is good and 
promoting it through music, he gains followers by epitomizing 
children's black thoughts of rebellion.''
    Senator Brownback. Did you talk with your son's friends 
about coming here to testify?
    Mr. Kuntz. Yes, I did.
    Senator Brownback. What did they think about you testifying 
on your son's suicide?
    Mr. Kuntz. Our son's friends have been a great source of 
comfort for us. They come to our home and visit us. They stop 
by the store and talk to me. We comfort them; they comfort us. 
And I have talked to them extensively about this kind of music 
and what I plan to do. I have asked them if this is proper, if 
they approve of what I am doing, and part of the reason that I 
am here today is because they tell me that what I am doing is 
the right thing to do.
    Senator Brownback. How did they respond to this whole 
ordeal? You mentioned that they came by your store and spoke 
with you. Right after this happened, how did they respond to 
the whole ordeal?
    Mr. Kuntz. They were horrified and surprised and couldn't 
understand and terribly hurt. I found out something about our 
society then. We really do care for each other. We care for our 
family; we care for our friends and neighbors. Our children do, 
too. Nobody wants to experience this kind of loss.
    Senator Brownback. Did you know your son was listening to 
this type of music, Mr. Kuntz?
    Mr. Kuntz. Yes, as a matter of fact, I did. I talked to my 
son as long as--well, it would be 3 years ago now--about the 
heavy metal music that he listened to. I didn't care for the 
liner art. I didn't care for the titles of the songs. I didn't 
care for the lyrics as I read them. And 1 day I had a talk with 
him. He was an aggressive roller-blader, a really athletic boy, 
and he had a ramp built and some other stuff. And he had 
symbols on there that I didn't care for, things like swastikas 
and anarchist symbols and this sort of stuff. And I talked to 
him about the music and where the symbols were coming from and 
told him that I didn't want him to use those symbols because I 
didn't want him to become desensitized by casual exposure to 
symbols that have a very real, historical association with 
evil. And he painted them out, and things went on.
    And 2 years ago, when he was 13, we came back from the lake 
and a camping trip, and he talked to me afterwards, and he 
said, ``Dad,'' he said, ``you know, you don't like some of the 
music that I listen to, but some of the kids down there were 
listening to stuff that I found offensive.'' And I said, ``What 
was that, honey?'' And he said, ``White Zombie and Marilyn 
Manson.'' And I said, ``Well, what did you do?'' He says, 
``Well, I took them away and I wouldn't let them listen to 
them.''
    Well, sir, I am afraid that he took those albums away from 
those children and brought them into his own life. I thought my 
son, when he told me this story, was making headway towards 
maturity.
    Senator Brownback. Have you talked with other parents in 
North Dakota or your community or around the country that have 
experienced something similar to what your family has 
experienced?
    Mr. Kuntz. No, not directly. We have had other suicides in 
the community. Every child who suicides is a different person 
with a different life, not necessarily associated with this 
kind of music. There was a suicide 4 months after my son's 
death where a young man drove his car off a cliff on the way 
back from a neighboring community, coming back from some heavy 
metal concert. I don't know who it was. But as far as talking 
to parents about it, no, I haven't.
    People who have experienced suicide in their lives that are 
survivors rarely talk to other people. They will occasionally. 
They will open themselves and talk to somebody who has 
experienced suicide, but not to the general community. And it 
is amazing how much there is out there.
    Senator Brownback. I hope your testimony will embolden and 
empower some of those parents to be willing to talk about what 
has to be a terribly anguishing, just gut-wrenching experience. 
And I would invite them to contact this Subcommittee if there 
are others that want to speak out about it. I appreciate your 
candor and your courage in coming forward.
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman.
    Mr. Kuntz, I very much appreciate your coming here. I was 
so struck by your letter when you sent it to me earlier in the 
year about what you had been through, and it has got to be--it 
is, obviously, very, very painful to recount this tragedy that 
you and your family have undergone. And I admire you for having 
the courage to do it. Each of us who are parents can feel what 
you are feeling, and it is terrifying. It is a nightmare.
    I know your hope is--and I admire you tremendously for 
this--that it is worth coming forward and telling your story as 
a warning to other people and to try to help us do something 
about it, and in a way today to give you the opportunity to 
speak directly to some of the people in the recording industry, 
who are good people but are part of producing some terrible 
music that you have reason to believe helped to end your son's 
life.
    I was thinking, as you were reading from his paper, which 
was quite eloquent--and I apologize if this seems like a 
digression; I am going to do it very briefly--but it so 
movingly speaks to a concern that I think motivates so much of 
our effort here and the reflections your son had about the 
contrast between what Marilyn Manson music was doing and 
religion, in this case Christianity.
    I talked about a values vacuum in my testimony. There is a 
wonderful man named Father Richard Neuhaus who has written a 
book called ``The Naked Public Square,'' in which he describes 
the extent to which we in our country, sometimes for good 
reasons, have nonetheless pushed out of the public square 
acceptance and respect of one of the major sources of values 
and discipline in our culture traditionally, which is religion, 
beyond constitutional reasons, and that what happens then when 
the public square is naked is that something else fills it. And 
too often in our time what is filling it is this abominable 
culture, music, TV, movies, too much of it giving our kids 
exactly the wrong message.
    Look, we are an imperfect species, human beings. We strive 
to maintain our stability and to improve ourselves. And the 
influences on us, whether they set standards and help us 
conduct our lives, or whether they destroy our ability to do 
so, have a major impact on how we as individuals and how our 
overall society goes forward.
    And your testimony is just the most stunning evidence of 
that that I have heard in a long time, quite explicitly--I 
mean, down to the title of the CD that your son was listening 
to.
    I want to just ask you one or two questions. As you know, a 
lot of people in the record industry who have spoken out on 
this problem say, yes, some of this music is awful, but the 
artists, so-called, have a First Amendment right to have their 
music produced. And the real responsibility here is on parents 
to monitor what music their kids are listening to.
    How do you respond to that argument?
    Mr. Kuntz. We all have a responsibility to look after our 
children, not just parents but the political establishment, the 
churches, the schools, the corporate world, the business 
community. If we don't look after our children, our society is 
ultimately not going to make it. It is a joint thing. Nobody is 
exempt from responsibility here. We all share it.
    Senator Lieberman. So parents really can't do it alone.
    Mr. Kuntz. It is impossible to do it alone.
    Senator Lieberman. Right. I agree. I am from Connecticut 
so--I have been to North Dakota. Senator Conrad talks to me 
about it all the time. But some of the perverse behavior that 
is celebrated in music such as we are focused on today, it has 
always existed. But traditionally, in the history of the human 
race, it has been in the shadows. It has been concealed. And 
part of what has happened in our time is that vile material 
like this gets produced, gets mass marketed, it is on 
television; it is in the movies, and your son in Burlington, 
North Dakota, not in some dark alley in one of America's big 
cities, gets to tap into the lowest, most degrading aspects of 
our culture. And it really is part of why--I think you are 
absolutely right. Parents can't do it themselves, no matter 
where they live. Nobody is safe. There are no sanctuaries 
anymore. And that is why we have to go back to the top of the 
corporations that are producing this and ask the executives to 
be responsible.
    Let me ask one final question that goes to the comment you 
made about the existing record industry association labeling 
sys- 
tem. You touched on some of this briefly in response to Senator 
Brownback. I think you said to Senator Brownback that you knew 
that your son had Marilyn Manson CDs or albums. Did you know 
what was on those albums?
    Mr. Kuntz. No. I was aware that my son was writing this 
English class paper on Marilyn Manson. I wasn't aware until 
then that he was listening to it. We skipped from the incident 
at the camping to writing this paper about Marilyn Manson, and 
I thought that he was doing an intellectual, academic exercise. 
And my little boy, about 2 weeks before he died, he brought 
this--he said, ``Daddy, come here.'' He had me come into his 
bedroom, and he said, ``Here, this is the `Antichrist 
Superstar' CD that I am doing for my English class paper.'' And 
I looked at it, and I looked at the flip side, looked at the 
liner art, and I looked at the text, and I blew up, told him I 
didn't want this stuff in my house. And after talking with my 
wife and my son--and my wife had talked with the English 
teacher, who I believe was blindsided by the--I don't believe 
she had any idea whatsoever what the contents of this stuff 
was. I let it slide.
    But I missed an opportunity there. I failed my son as a 
father. My son came to me and said, ``Daddy, Daddy, look what I 
have.'' And I failed to recognize that my son was holding a 
hand grenade and it was live and that it was going to go off in 
his mind.
    I wish to this day that I had been a reasonable and 
rational person and sat down and gone over the lyrics with him 
and talked about it and reached out and touched my son, and 
perhaps what he was doing would have remained an academic 
exercise.
    Senator Lieberman. I understand how you feel, but don't be 
too hard on yourself. Almost every parent in America in that 
position would have done exactly what you did because it didn't 
look like a hand grenade. It looked like a CD. Unfortunately, 
it was a hand grenade.
    I thank you from the bottom of my heart for having the guts 
to come forward and tell this story. I wish you and your wife 
and family well. Thank you.
    Senator Brownback. As do I, and please do not be too hard 
on yourself, and thanks for the courage in coming forward.
    I would like to go to our next panel presenter, Dr. 
Palumbo. Dr. Palumbo is a practicing pediatrician in 
Washington, D.C. He is here representing the American Academy 
of Pediatrics. Dr. Palumbo, thank you very much for being here.
    Senator Conrad, if you would like to join us, you are 
welcome to, as well.
    Senator Conrad. That is very kind of you. I have another 
obligation, Mr. Chairman, but I deeply appreciate your holding 
this hearing, especially the way you have conducted it.
    Senator Brownback. Thank you.
    Dr. Palumbo.

TESTIMONY OF FRANK PALUMBO, M.D.,\1\ ON BEHALF OF THE AMERICAN 
             ACADEMY OF PEDIATRICS, WASHINGTON, DC.

    Dr. Palumbo. Thank you, Mr. Chairman, Senator Lieberman, 
and Senator Ashcroft. You have my written statement, and I will 
submit that. I had drafted some oral remarks that, in light of 
the previous testimony, I think are somewhat superficial and 
unneeded.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Palumbo appears in the Appendix 
on page 55.
---------------------------------------------------------------------------
    I will say, though, that there is no question about the 
effect of music in our lives, on all our lives, how it can take 
us to the heights of joy and, as we have seen, to the depths of 
depression.
    Children today are exposed to many things. Their lives have 
changed dramatically over the last four decades. They are 
exposed to many things like drug abuse and alcoholism, 
homicide, and, as we have seen, suicide. And despite what the 
song says, suicide is not beautiful. Suicide is a terrible 
thing.
    I had the opportunity to read through some of the lyrics of 
the songs we are talking about and found them incredibly 
depressing. It is not hard to see how someone who is 
conflicted, someone who is at risk, could be deeply affected by 
what they are reading and seeing and hearing.
    Mr. Lieberman, you mentioned the phrase ``anything goes,'' 
and I am going to read some lyrics by Guns N'Roses. It says: 
``I've been thinking about, thinking about sex/Always hungry 
for something that I haven't had yet/Maybe, baby, you got 
something to lose/Maybe I got something, I got something for 
you/My way, your way, anything goes tonight/My way, your way, 
anything goes/Panties 'round your knees with your ass in the 
breeze/Doing that rhyme with a push and a squeeze/Tied up, tied 
down, up against the wall/Be my rubbermaid, baby, and we can do 
it all/My way, your way, anything goes tonight.''
    I think you are right. Anything does seem to go. We hear a 
lot about responsibility. We hear a lot about corporate 
responsibility, personal responsibility. I don't think there is 
any question that we as pediatricians, myself as a 
pediatrician, our organization, we as parents need to have 
input and knowledge of what our children are seeing and reading 
and listening to.
    But, on the other hand, there is also a corporate 
responsibility, something that we at the academy have been 
discussing for a long time. And this kind of thing, lyrics like 
this, lyrics like Marilyn Manson, although popular, profitable, 
I feel are incredibly harmful and that there has to be some 
responsibility taken by those who write, produce, market, and 
sell this kind of thing.
    This is not poetry. Some people have said this is poetry. 
This is not poetry. We need to have a sensibility and a 
sensitivity at the highest level. In addition, we need to get 
the word out. We all need to know what is being sold and 
marketed to our children. And if anything, I hope that the 
actions of this Subcommittee and subsequent committees in 
hearings will at least be able to promote that activity.
    I agree with you this is not about censorship--although I 
believe in censorship. I believe in censorship in the home, and 
that is where it has to start and should start. But this is not 
a First Amendment issue, not by any stretch. This is an issue 
of being concerned about the safety, well-being, and health of 
our children.
    Thank you.
    Senator Brownback. Thank you very much, Dr. Palumbo.
    We are joined again on the panel by Senator Ashcroft, and I 
have a couple of questions for you, and then I will turn to 
Senator Ashcroft, if you would care to have any questions.
    Dr. Palumbo, why are pediatricians concerned about music 
violence? You are here representing the American Academy of 
Pediatrics. Why are they concerned about music violence?
    Dr. Palumbo. Well, we are concerned about it because we see 
the results, I guess you could say. There is much anecdotal 
evidence of harm being done to kids by this. We certainly heard 
one today.
    In talking with other health care professionals, child 
psychiatrists in their counseling, they are convinced that 
music videos and violence in music develops an atmosphere, an 
environment that can easily confirm and affirm the struggles 
and the conflicts of a young child or an adolescent. It may not 
always necessarily cause them to perform an act, but it 
certainly provides them with the ammunition, the affirmation 
that what they are doing, what they are thinking of doing is 
reasonable and approved. And it is because of that and it is 
because of what we see just in general in our society with 
youth violence being such a problem--drug abuse, teen 
pregnancy, AIDS--all these issues are becoming more and more 
important. They are more and more prevalent. And this certainly 
is one piece of that problem that we feel needs to be 
addressed.
    Senator Brownback. You have been a practicing pediatrician 
in Washington, D.C., for some period of time. Have you seen 
specific instances in your experience treating young people in 
the District that you would characterize the effects of 
prolonged exposure to this type of music, this violence or 
misogyny? Have you seen that in your practice?
    Dr. Palumbo. I haven't seen it directly. Where we see it, 
where one sees it, is, again, as part of a culture, part of an 
environment that promotes certain behaviors in kids. The most 
disturbed kids that I have in my practice seem to be the ones 
that are most involved with this. And, again, it is not causal, 
but it does promote--aid and bet, I guess you could say--that 
behavior.
    Senator Brownback. As somebody who has run for public 
office, I hear a lot of parents saying that I am tired of 
fighting the culture to raise my kids, almost saying that the 
culture used to be something that buttressed and helped them 
raise their children and would surround them with positive, and 
instead they feel like they are fighting it all the time. Is 
that reflective of your experience?
    Dr. Palumbo. Yes, and it is interesting because it 
certainly isn't just music, music videos. We talk a lot about 
television and its effect on kids. It does seem to be a 
constant struggle. Parents have to constantly fight off the 
efficacy of slick commercials, well-produced programs, and it 
is not an easy battle.
    Sometimes, I have a few parents, and the way they fought it 
is by simply eliminating a TV in the home. Just take it out. 
The ultimate censorship. And, remarkably, those--or maybe not 
so remarkably, those children happen to be very well read, 
well-rounded, nice kids. There is a cause and effect there. 
There is no question about that.
    But it is a constant struggle. Media in general is so 
pervasive, whether we are talking about the Internet, videos, 
VCRs, video games, whatever. It is incredibly pervasive and 
invasive, and an incredibly potent adversary for parents.
    Senator Brownback. There has been a lot of discussion 
recently, and talks and studies, about the loss of self-esteem 
among teen girls in particular. Much of this music that we are 
talking about today--and, again, I want to reiterate there is a 
lot of good music, but what we are targeting today and looking 
at is very hateful towards women and derogatory. Do you think 
there is any relationship there amongst the self-esteem issue 
amongst teen girls and this music's treatment towards women?
    Dr. Palumbo. Well, that I can't answer. I think that in 
general the media presents an image and a portrait of a woman 
and what a woman should be and what a girl should be. And 
whether it is a super model who looks perfect on the screen or 
something in a lyric, teenage girls today are driven toward an 
image and a goal that is very unattainable for most, and then, 
therefore, it can be very damaging. The epidemic of anorexia 
nervosa in our teen girls I think is the best example of that.
    Senator Brownback. Dr. Palumbo, we appreciate very much 
your testimony. We will be able to look at your written 
testimony.
    Senator Lieberman.
    Senator Lieberman. Thanks, Dr. Palumbo.
    Very briefly, let me present a kind of lay person's concern 
that I have and ask you to respond as a professional, as a 
pediatrician, as somebody who has been in practice, and also is 
more familiar with the literature than I am.
    This music that we are focused on today is objectionable 
within itself. It violates so many of the commonly held values 
and standards that we have as a society about violence and 
sexual behavior and the rest. But it obviously concerns us here 
because we are worried about its consequences. And as you 
correctly said--and I think this is an important point--we are 
focused on the record industry today, and I tried to make this 
point in my opening statement. This is part of a cumulative 
picture of messages that kids are getting from very alluring, 
effective electronic media, television most pervasive of all, 
music, movies, etc.
    OK. I set that on one side. And what it seems to me to be 
sending, a lot of messages, anything goes, resolve conflict 
with violence, violence is portrayed with much more brutal and 
graphic realism than used to be the case. Television, I have 
seen studies of this, people calculate actually the number of 
times that sexual acts are either simulated or discussed on 
television without any discussion of the consequences. This is 
all part of the ``anything goes culture.''
    So we take all the violence and sexual messages from the 
media, including the recording industry. Then I look at some of 
our society's most troubling problems: Enormous rise in youth 
violence, enormous, an outbreak, which we have all talked about 
constantly, has been heading up, plateaued a little bit in the 
last year or so of teenage pregnancy, of unwed girls giving 
birth, outrageously irresponsible behavior by both, but 
particularly by the young men in- 
volved, or older men, as is the case sometimes, who just walk 
away leaving a girl with a baby, increase in sexually 
transmitted diseases among young people.
    So naturally, we say to ourselves--and it is part of--it is 
not just taste, but it is an offense to our morality that moves 
Senator Brownback and me to be concerned about this. We are 
worried about whether it is affecting behavior. And I don't 
blame youth violence and teenage pregnancy on the recording 
industry or the television industry, but it just seems to me by 
common sense that what they are putting out is contributing to 
those problems.
    Now, how do you respond to that as a professional, as a 
doctor, as a pediatrician?
    Dr. Palumbo. There was in the past a statement that said: 
Children learn what they live. This was directed more toward 
parents, and when children see parents or adults acting in a 
certain way, they automatically assume that that behavior is 
appropriate because it is an adult parent and parents and 
adults do the right thing.
    I think what we are seeing here is something similar in 
that if it is on TV, if it is being produced and marketed and 
portrayed on TV or in a video, then it must be OK. It must be 
OK. What I am feeling, what I am thinking, what impulses I am 
having, what urges I am having, are OK because, look, they are 
doing it, so I guess I can do it, too.
    It promotes the acceptance, as I said before, the 
affirmation, the confirmation that anything goes. Smoke two 
joints in the afternoon, and it is going to make you feel 
great. To live is to drink, and on and on and on and on.
    You watch enough of this, see enough of this, and if this 
is your world, if this is your experience, then you become part 
of it, believe it, and then act on it. It is not a one-to-one 
cause and effect relationship, but it certainly is a very, very 
powerful motivator of behavior and of thoughts and actions that 
are there, that are normally there in kids as they go through 
adolescence. But, hopefully, there are other forces and 
influences that counter-balance those urges, those drives. This 
certainly does not do that. It promotes it.
    Senator Lieberman. Thank you. Thanks, Dr. Palumbo.
    Senator Brownback. Thank you very much, panel members, Mr. 
Kuntz and Dr. Palumbo. We appreciate your coming forward and 
testifying.
    Our next panel member will be Ms. Hilary Rosen. Ms. Rosen 
is the President of the Recording Industry Association of 
America.
    Ms. Rosen, thank you very much for coming here and 
testifying in front of the Subcommittee. We appreciate your 
willingness to come forward.

  TESTIMONY OF HILARY ROSEN,\1\ PRESIDENT AND CHIEF EXECUTIVE 
OFFICER, RECORDING INDUSTRY ASSOCIATION OF AMERICA, WASHINGTON, 
                              DC.

    Ms. Rosen. Thank you. Good afternoon, Mr. Chairman, Senator 
Lieberman.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Rosen appears in the Appendix on 
page 61.
---------------------------------------------------------------------------
    Before I start, I have a couple of statements that I would 
ask be inserted into the record, one in particular from a woman 
named Nina Crowleyn, Massachusetts Music Industry Coalition, 
who you met, Mr. Chairman, who had asked to testify, but she 
has some things about young people in Massachusetts and around 
the country that she would like inserted in the record.
    I would like my full statement, which I will summarize 
today, be inserted in the record as well.
    Senator Brownback. Without objection.
    Ms. Rosen. Thank you.
    For much of this century, whether it is ragtime, rhythm and 
blues, rock and roll, or rap, each generation has seen adults 
who compare today's music to the music of their youth and say, 
``This is different.'' For good reason. Popular music, after 
all, has often been the vehicle for young people to express the 
ways they differ from their parents.
    I am grateful, Mr. Chairman, for the opportunity to speak 
this morning. I share your concern for young America. We in the 
recording industry are alarmed by the pervasiveness of drugs 
and violence in American culture and in the lives of young 
people.
    We are involved in an industry important to young people. 
We are parents, too. Every time I pick up the newspaper or 
watch the evening news, I am reminded of how precious our 
children's lives are and how vulnerable.
    This sensitivity animates our work to fight drugs, promote 
good citizenship, and end violence. Heavy D's involvement in 
Operation Unity promoting racial harmony in America's cities, 
to Ice Cube's non-profit Brotherhood Crusade in South Central 
L.A., to Queen Latifah's Daddy's House, providing educational 
opportunities for underprivileged children--I have hundreds of 
examples of artists that have done things to help young people 
in their communities.
    In fact, I just returned from Los Angeles where RIAA and 
the Musician's Assistance Program joined the Partnership for a 
Drug Free America by organizing several recording artists to 
record and launch a PSA campaign to urge young people to stay 
away from drugs. These PSAs will get nationwide exposure on MTV 
and other outlets that will continue throughout the year.
    It was just a small part of our ongoing efforts.
    The music community is making a positive difference in many 
ways that don't get attention. This by no means implies that 
our artists are perfect. Frankly, they probably don't want to 
be. There are songs I wouldn't want a 10-year-old to hear any 
more than I would want them to see scenes from ``Chain Saw 
Massacre'' or ``NYPD Blue.'' And it is precisely because the 
record industry realizes that many parents are genuinely 
concerned about the music their kids are listening to that we 
label our product. We began in 1985.
    We labeled records with a parental advisory sticker so 
parents could make intelligent listening choices for their 
children. When people said it wasn't enough, we did more.
    Today, record companies are vigilantly applying that 
sticker. Indeed, it is ironic that every one of the albums 
being attacked here today has been rated and stickered with the 
parental advisory label.
    But that is not all. Record retailers restrict sales of 
albums to consumers under the age of 17.
    Give parents information? We agree.
    Don't sell to minors? We agree.
    And we don't stop there. We have a consumer awareness 
campaign to enlighten parents about the parental advisory 
program.
    For all of that, let me put this issue in perspective, 
although, frankly, Mr. Chairman, I think you have already done 
that today. In a retail record store with over 110,000 titles, 
less than one-half of 1 percent are going to be stickered 
product. In fact, the No. 1 album in Billboard last week was 
LeAnn Rimes' remake of the Debbie Boone hit, ``You Light Up My 
Life.'' If young people are so influenced by music lyrics, we 
are in pretty good shape.
    For those people who are sincerely offended by any music, 
the remedy is obviously clear: Read the labels. If your child 
comes home with a CD, read the lyrics. Retailers will take it 
back if you don't like it. In this, we stand with mainstream 
America, 94 percent of whom agree it is the responsibility of 
parents to monitor the type of music that their children listen 
to.
    It is not an easy decision to sign an artist and release a 
record. A record company invests in an artist because that 
artist has a unique vision and a creative way to express it. 
Music is not just about the lyrics. The melody and the rhythm 
combine with an expression of the soul that captures the 
essential moments of understanding and mood. People respond to 
an artist's expression, but music is a connection. It is not a 
directive.
    I would prefer not to disagree with a loving parent like 
Mr. Kuntz, who has suffered, obviously, the unimaginable loss 
of his son, Richard. But medical studies have concluded that 
while music may echo an adolescent's emotional state, it is not 
the cause of it. In fact, the American Academy of Child and 
Adolescent Psychiatry lists 14 signs to look for in a suicidal 
child, and music is not among them.
    Record companies constantly make choices not to put out 
songs or albums because they don't meet the test of artistic 
credibility. Every company I represent has a review committee, 
and once an album is created, if they do decide to release that 
record and it warrants a label, one gets applied.
    Why at this point would we want to stifle the very voices 
that give us so much insight into the diversity of issues 
facing our young people? Shouldn't we indeed be listening a 
little more carefully to the music instead of trying to turn it 
off?
    For a record company to unilaterally deny artists an 
opportunity with a difficult message is to deny that there are 
some in our society who express pain and anger in a way that is 
valuable, even musical, and that adds to our Nation's diversity 
of culture. A determination to shut down the voices would be 
doomed to failure, which is as it should be. It is not a First 
Amendment claim I am making. It is simply a cultural one.
    I would like to close this morning by some place where we 
may be able to find common ground. We agree that young people 
are worth investing in. They need our help. There is a 
generation of teenagers out there who are crying out for 
respect, understanding, and leadership. They have an inherent 
belief that this is a wonder- 
ful time to be alive, and they are smarter than their critics 
give them credit for. Most of them, that is. Others have more 
despair. Violence in their schools, in their homes, in their 
communities, the high cost of education, and the pervasiveness 
of drugs in society scares them.
    This maybe could be the start of a new dialogue with young 
people, one that appreciates their unique bond with music. It 
would offer you an opportunity you don't normally have to 
participate in a positive discussion about the future of young 
America. That is what I would hope would come out of this 
hearing.
    Let's make sure that 40 years from now, when the 
controversial singers of today are remembered with the 
nostalgia we--or some of us, anyway--remember Elvis, that 
people say we reacted not just with fear but with foresight, 
not just with slander but with solutions. Thank you.
    Senator Brownback. Thank you, Ms. Rosen.
    I frankly hope we do not act with too much nostalgia in the 
case of Marilyn Manson in future years, looking back and 
reading through those lyrics, which I am sure you have looked 
through. And perhaps we can have future hearings with the 
Recording Industry to explore this subject.
    Let me ask a few things if I could. What specific standards 
do record companies use for making decisions about whether to 
produce or not to produce and to market a particular album?
    Ms. Rosen. Probably three main things. The first one is 
does it have a musical sensibility, because after all, music is 
much more about the music than it is about the lyrics, 
ultimately. The second is does that artist have an artistic 
credibility; is what they are saying coming from a real place, 
whether or not the record company executive agrees with it, or 
are they just being sensationalist.
    And probably the third is whether it is something 
different, whether it is something new that has not been said 
or done before that adds to that cultural diversity that I 
spoke about.
    Senator Brownback. So if it is particularly violent or 
misogynistis, that is not considered in any of the criteria by 
a record company whether or not they would market it. You say 
the criteria are that a single different, sensational, have 
musical sensibility--I am not exactly sure what you mean by 
that. But if a single lyric is particularly hateful toward 
women, that would not necessarily be in the decisionmaking 
criteria by a company?
    Ms. Rosen. I am not quite sure what you mean, because 
obviously----
    Senator Brownback. Well, we can read some lyrics.
    Ms. Rosen [continuing]. Lyrics are open to interpretation, 
and what I said was that if there is a credibility about what 
that artist's expression is, that would be the judge. If there 
were particularly harsh lyrics----
    Senator Brownback. So if there is credibility in being 
anti-female, then that is OK.
    Ms. Rosen. Well, you are making a judgment about what the 
interpretation is by saying it is anti-female, and I do not 
know that I could go there. The particular issue is whether or 
not the lyrics are explicit, and if they make a decision that 
there is artistic credi- 
bility, and the lyrics are explicit, then it gets stickered--
like this one.
    Senator Brownback. Let us take that one, if we could, 
because I want to see what standards the record company goes 
through. That is what I am trying to understand. Now, that 
album I just had staff take down to you is the Marilyn Manson 
album that we just heard Mr. Kuntz testify about. As you know, 
he had a terrible situation that happened in his family, and I 
think everybody feels that.
    Now, that album is labeled; is that correct?
    Ms. Rosen. Yes.
    Senator Brownback. And it is labeled ``Parental Advisory.'' 
Now, what does that label require the record company or the 
distributor, the actual sales point, to do?
    Ms. Rosen. What this label does is give the signal--the 
first place is to retailers, that when they are displaying this 
album, they are conscious that it has a ``Parental Advisory'' 
sticker. Every, single retail store in America has signs about 
what the ``Parental Advisory'' logo means; so retailers know 
that if there is a record stickered, they should have a sales-
restrictive policy. That is what virtually every retailer in 
America has already implemented.
    Senator Brownback. OK. They are not required to restrict 
sales to those under age 17, but most try to do that, is that 
correct?
    Ms. Rosen. Most retailers in America have that policy, yes.
    Senator Brownback. OK. But that is not required, and they 
do not have to do that?
    Ms. Rosen. That is right.
    Senator Brownback. OK. So this label is just to try to 
advise them that this music is with some explicit lyrics; is 
that correct?
    Ms. Rosen. Yes.
    Senator Brownback. Now, in this album--and the lyrics are 
printed in that one--you can take it out, and there are lyrics 
inside it, or we can get them printed for you--I would like to 
go through some of them in light of the record company's 
decision-making criteria.
    Ms. Rosen. Senator, the ``Anti-Christ Superstar'' record of 
Marilyn Manson is a take-off on the ``Jesus Christ Superstar'' 
album. It tells a story of one man, 16 loosely-connected songs 
that trace the rise of an abused child railing against a 
hypocritical society. That is what Marilyn Manson himself has 
said. That is about all I can tell you right now about what 
these lyrics mean, because they have an interpretation to him 
and everybody else who listens to them differently. So I am 
frankly going to decline the opportunity to sit here and go 
through the lyrics with you.
    Senator Brownback. Now, it is marketed by what company?
    Ms. Rosen. It is marketed by Interscope Records.
    Senator Brownback. And that is owned by whom?
    Ms. Rosen. It is owned by two individuals.
    Senator Brownback. Is that the MCA group that has 
Interscope?
    Ms. Rosen. Universal Music Group, but they do not own 
Interscope Records.
    Senator Brownback. It is a large corporation.
    Ms. Rosen. Yes.
    Senator Brownback. And in that----
    Ms. Rosen. And they are following their corporate 
responsibility in their distribution by putting a sticker on 
this album. There is no secret about it.
    Senator Brownback. OK. But I am asking about the wording, 
and if there is any decision made by the companies themselves 
that market this record in looking at the lyrics that they put 
forward. That is why I would invite you to look--there is 
plenty to look through on the album, but ``Irresponsible Hate 
Anthem'' is in there, and the words are there to that. I would 
like to know do the record companies consider the words being 
put forward in whether they are going to market it or not 
market it.
    Ms. Rosen. They consider the whole work as to whether they 
are going to market it or not market it, and whether they 
believe that, as a whole work, this record or any other record 
has a level of artistic credibility, satire, theater--any kind 
of message that has some validity in today's society. That is 
what makes their decision.
    But more importantly, they are not trying to pull the wool 
over anybody's eyes. They recognize that this is not 
appropriate for young children. That is why they put the 
sticker on it; that is why retailers do not sell it to young 
children. That is exercising their corporate responsibility. 
But there are adults who like Marilyn Manson and should be 
entitled to get access to them.
    Senator Brownback. Who purchases Marilyn Manson albums? Do 
you know anything about the demographics of those who purchase 
those albums?
    Ms. Rosen. No.
    Senator Brownback. Have you looked at that or studied the 
demographic profile of those who purchase shock rock or gangsta 
rap records--or is your industry----
    Ms. Rosen. No. We cannot really----
    Senator Brownback [continuing]. It seems to me the industry 
would be interested in knowing.
    Ms. Rosen. Obviously, records are sold in hundreds of 
thousands of outlets throughout the country. What I can tell 
you is that the overwhelming majority of music in America is 
bought by people over the age of 18. The two biggest records 
among young people this past year were the Spice Girls and 
``Aqua.''
    Senator Brownback. Which I am glad about. And as I stated 
at the outset, and several of us did, I am delighted to see 
that we have those sorts of albums. But I believe Marilyn 
Manson's ``Anti-Christ Superstar'' album actually started out 
at No. 3 on the charts?
    Ms. Rosen. I actually do not know what it is; it is not on 
the charts now, not even in the top 200.
    Senator Brownback. And the Recording Industry does not know 
the demographics of the purchasing of this sort of music, which 
you yourself would contend has a great deal of hateful comments 
toward women?
    Ms. Rosen. Well, again, young people do not have to go to 
music to find messages against women in this society. They need 
not look much farther than many corporations, or the floor of 
Congress, or in many ethnic cultures.
    The fact is what corporate responsibility is to make sure 
they are not trying to encourage young people to buy lyrics 
that they know are most appropriate for adults, and they do 
that with the sticker.
    Senator Brownback. OK. But what I am trying to understand 
is what set of standards the industry puts forward, and 
basically, what I am getting from you is no definite standards 
at all. And you refuse to look at the words--I would be happy 
to read them off here and have you react to them, of one of the 
songs that is in that album--but you are telling me that 
basically, you do not have any standards at all that any major 
company looks at in selling a record?
    Ms. Rosen. No, I did not say that. I said that the standard 
is a level of artistic credibility and expression that has 
validity in today's society. I know you do not agree with this, 
but when you look at a painting, what makes one painting good 
and one painting bad? It is a matter of taste. So you may 
assume that something is simply bad taste because you do not 
like it, but that does not mean there is not a level of 
artistic creativity that went into the creation of it. And 
record companies make those judgments every day.
    Senator Brownback. And this is a major company. Let me read 
you the words, then, to ``Irresponsible Hate Anthem,'' that is 
in an album that is marked, but there is no blockage of it 
being sold to children under the age of 17. And I would be very 
interested myself to see the demographic purchasing of some of 
these.
    These are just some of the lyrics--and I am not going to 
read all of them, because I do not think they are appropriate 
to say. ``I am so all-America, I would sell you suicide. I am 
totalitarian. I've got abortions in my eyes. I hate the hater. 
I rape the raper. I am the animal who will not be himself.'' 
And then the ``F'' word--``it. Hey, victim, should I black your 
eyes again? Hey, victim''--and then it goes on from that point.
    Now, this is put forward by a major company; it is marketed 
across the country in large quantities, and I guess you are 
saying that this has a musical sensibility to it that is fine 
to be able to market and even for people under the age of 17 to 
get hold of?
    Ms. Rosen. I do not have to be in the position of defending 
Marilyn Manson. I would just try to open your eyes a little 
more to culture in America.
    ``I shot a man in Reno just to watch him die'' is a line 
from Johnny Cash's ``Folsom Prison Blues.'' ``Romeo and 
Juliet'' was all about youth suicide and tragic love. ``King 
Lear,'' there is murder in the family.
    This is just, in the grand context of things, one more 
piece in that broad diversity of information that is in 
America.
    Senator Brownback. Ms. Rosen, I do have to disagree with 
you that there is a difference between ``Romeo and Juliet'' and 
Marilyn Manson's ``Irresponsible Hate Anthem.''
    If there were research that demonstrated that violent music 
lyrics did exert a harmful effect on teens, how would the 
Recording Industry respond to that in its marketing of these 
songs?
    Ms. Rosen. The marketing of stickered products actually is 
a good question, because these songs are not played on the 
radio. Videos are not played on MTV, or if they are, they 
certainly do not depict any images of that explicit nature. 
MTV, Black Entertain- 
ment Television, VH-1, the primary video outlets in this 
country have very strict standards of what goes on the air. 
Radio stations put this on the air. To get this, you have to go 
and affirmatively buy it. There is no marketing of this music 
that is instantly accessible to young people that the record 
companies promote.
    Senator Brownback. And you do not know how many albums of 
this one particularly, the Marilyn Manson album, sold at its 
peak point?
    Ms. Rosen. I do not know that.
    Senator Brownback. I am sure you would be interested in 
that, wouldn't you, I mean, given some of the words I have read 
you today and that others----
    Ms. Rosen. It has probably sold a few hundred thousand.
    Senator Brownback. But that does not draw any cause of 
concern to you as a responsible citizen in this society, or 
representing companies that are marketing this? I mean, you are 
not interested in where this music is going or who is 
purchasing it?
    Ms. Rosen. Senator, again, the purchasers of this album in 
retail stores are over the age of 17.
    Senator Brownback. It is not required.
    Ms. Rosen. Record retailers voluntarily--and we have many 
statements, and you have been sent them, by record retailers 
from around the country--impose that restriction on sales 
purchases. That sticker means young children cannot buy these 
records.
    Senator Brownback. I would like to see if that is actually 
the way it works and happens. And I would presume the industry 
would be very interested to see if that system actually works.
    Ms. Rosen. Well, actually, we tested it several times.
    Senator Brownback. And so you know where these records or 
CDs are being sold now and who is purchasing them?
    Ms. Rosen. No. We have tested several retailers in buying 
stickered products with young children, and in every case, we 
have been rejected.
    Senator Brownback. So you have tested it sporadically, but 
you do not know basically the age range of people who are 
purchasing these albums, and you are basically telling me today 
that you do not want to know, either.
    Ms. Rosen. No, Senator. What I am telling you is that 
record retailers restrict the purchase of stickered albums to 
people above the age of 17. If this one is stickered, it falls 
under that rules.
    Senator Brownback. Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman.
    Ms. Rosen, I am disappointed by your testimony, but I am 
not surprised. We are frustrated by what you have had to say, 
but the truth is you are here representing an industry, and the 
people whom we are really upset with are the people who run the 
record companies.
    I will tell you why I am disappointed, and you tell me if I 
am hearing you wrong. I do not hear in your testimony any real 
acknowledgment about how terrible this music is or any 
willingness by the companies that are part of the association 
you represent here today to change their marketing policies. 
And you know, when you make reference to, ``For much of this 
century, whether ragtime or rhythm and blues, each generation 
has seen adults who compare it to the music of their youth and 
say this is different,'' believe me--and you know this stuff--
Marilyn Manson, Tupac Shakur, Cannibal Corpse, Snoop Doggy 
Dogg--is a long way from ragtime and rhythm and blues. You 
mentioned Elvis at one point. When I was growing up, the big 
question was whether Ed Sullivan was going to let Elvis move 
his hips a little bit on television; and now we are talking 
about murder of cops, gang rape, pedophilia. It is outlandish 
stuff, and I cannot view it, as Senator Brownback said, in the 
same league with some of the artistic experiences that you have 
described.
    I want to mention the First Amendment. The First Amendment 
has never been absolute in our country, as much as we prize it 
in the center of our freedom. Today, there are forms of 
pornography--people have been arrested for selling pornography. 
That is illegal, and it has been sustained as constitutional 
speech is limited by our laws of libel and slander. And then 
there is the classic, you cannot yell ``Fire!'' in a crowded 
theater when there is no fire, because of the harm that would 
result to the people who are there.
    So I hesitate to say what I am about to say, because I am 
not for censoring this stuff; I am really calling on all of you 
for more responsibility--but to me, this music is the 
equivalent of yelling ``Fire!'' in a crowded theater where 
there is now fire. And that is why I hope we are continuing a 
dialogue, and I hope that the people you represent will hear 
it.
    These are great companies. The five big producers of this 
stuff are enormous companies. Their leaders tend to be first 
citizens of their communities, both here and abroad, as a lot 
of them are foreign owned. But you know, too much of this 
continues.
    It is my information--and you correct me if I am wrong, or 
maybe we should both check our information--that Seagrams still 
owns 50 percent of Interscope and is still therefore 
responsible for some of the stuff that Interscope is producing 
and some of the Seagrams-owned labels--it is a complicated 
business--MCA is still distributing some of that stuff and 
still making money on it.
    When you hear--and this is the tragedy we heard about 
today, and we understand that all of us and our children are 
imperfect, and we are buffeted by events around us--when you 
hear the testimony of Mr. Kuntz, doesn't it make you want to go 
back to the folks at the recording company that sell his stuff 
and ask, isn't it time that we draw the line on Marilyn Manson?
    Ms. Rosen. As I said before, losing a child has an 
unimaginable grief for a person, but the fact is that most 
experts, virtually every expert that we have seen--in fact, 
even Dr. Palumbo today said that there is no causal connection. 
I do not want to further exploit the situation about the signs 
that should be looked at when a child is suicidal, but I 
encourage you to pay more attention to that.
    And you raise some important sociological issues about 
music and its role in society, generally, and I think that this 
Subcommittee and both of you Senators have lost something today 
by not having the opportunity to listen to people who are 
actually experts in studying this music. Dr. Michael Eric Dyson 
is actually sitting behind me. He has spent his entire career, 
now at Columbia University, studying this music and has much to 
say about the impact of the connection between young people and 
society.
    This music for young people is a reflection of what is 
going on. These messages out of this music are not the first 
place they are hearing them. I mean, companies frankly are a 
convenient corporate scapegoat. What we have decided is that 
our labeling and review program is as good as we can make it, 
but the fact is that young people around this country are 
watching this hearing, and they are watching it with some sense 
of cynicism and despair that the real problems that they are 
facing are not being addressed. What about their college 
scholarships? What about gun control? What kinds of jobs are 
available for them? Where are the fathers and the----
    Senator Lieberman. Oh, please--absolutely. But one does not 
justify the other. Good God, in so many other committee rooms 
and on the Senate floor, people are fighting for gun control, 
fighting for aid to bring families together and to bring 
fathers back to families. And even if we were failing at that, 
which we are in some cases and are not in others, that does not 
justify the record companies putting out this awful stuff.
    Here is what I am convinced of--and I have watched the 
change as I have watched the ages of my four children--
television, movies, music used to be entertaining and not 
threatening. And now, I think that more and more parents in 
this country feel that the culture is their enemy. We are 
asking you, as Mr. Kuntz did--he could have said it was all 
their fault, but he accepted some responsibility--but the 
companies that produce this stuff have responsibility, too, 
because this stuff does not just reflect--I hope to God--I am 
absolutely confident it does not reflect the mainstream of the 
kids of our country--it does not reflect what they are 
thinking, but it creates standards, fashions, inclinations.
    And, look, I do not know where music was on the list of 
factors that affect kids' behavior, but as Dr. Palumbo said, we 
all know that music has the capacity to make us very happy, to 
make us wild, to make us very sad. That is the nature of the 
art, and I think you just have to acknowledge that music has 
consequences.
    Ms. Rosen. Senator, with all due respect, if music had that 
much influence, for every song that has a drug message in it, 
there are three that have anti-drug messages; for every violent 
act, there is someone crying because their sister was murdered. 
For every song that you can point out to me and say something 
horrible happened, I will point out to you 10 more songs that 
talk about the joy of life and how we all have to love each 
other.
    Senator Lieberman. Well, more power to them.
    Ms. Rosen. So that frankly, if music had that much 
influence, this society would be in a lot better shape.
    Senator Lieberman. It is music, it is television--you turn 
on the TV in the afternoon, and soap operas have become sex 
operas. Talk shows encourage the participants who have 
disagreements to scream at each other, push at each other--and 
millions of kids are watching.
    Senator Brownback asked you about sales of the Marilyn 
Manson album. I do not have the numbers, but I had the 
impression that it had, as you say in the business, ``gone 
gold'' or become gold, which would mean that it would have sold 
more than half a million copies, the ``Anti-Christ Superstar.''
    Do you know?
    Ms. Rosen. I am sorry, I just do not know.
    Senator Lieberman. Well, one number I do have before me is 
that Tupac Shakur's ``All Eyes on Me'' did sell 5 million 
copies, and the last time we looked at this was last year, when 
15 of the albums that Bill Bennett--and DeLores Tucker is 
here--15 of the albums that we targeted as the worst--gangsta 
rap, shock rock--were on Billboard's Top 100, and four of those 
titles sold a total of more than 7 million copies. So a lot of 
kids are gaining access to them.
    We did some random surveying, and we found--and it is not 
your fault--but we found that a lot of retailers were not 
applying the age-based regulation that you have suggested--and 
that is understandable, unfortunately.
    I do want to give credit to Wal-Mart--and there are a few 
others--which still refuses to stock CDs or records that have 
your ``Parental Advisory'' label on them. And I gather that 
some of the companies in fact have altered the content of the 
albums to essentially pass Wal-Mart's standards so they do not 
get the sticker on them.
    Let me ask you about the sticker. Unfortunately, for better 
or worse, I have been involved in this whole question of 
labeling and disclosure to help kids, parents and consumers 
better understand what is inside the package, whether it is 
television and the rating system or the video games. Video 
games have adopted a very comprehensive and I think easy to 
understand labeling system, which basically tells parents how 
much sex, violence, and vulgarity are in the games. The TV 
rating system, we have argued over, and it is getting better.
    Your rating system, your label, is very, very general and 
vague. In other words, it says, ``Parental Advisory, Explicit 
Content.'' It does not tell us what we should be worried about 
if our kids come home with one of these CDs--is it violence or 
vulgarity or sexual abuse of women or whatever?
    Would you consider--and when I say ``you,'' I mean the 
record industry--going to a more explicit label that would 
better inform consumers about what is in the product and what 
is on the CD?
    Ms. Rosen. Like what?
    Senator Lieberman. Like what the video game or TV people--
or even the age-based movie system.
    Ms. Rosen. Well, it is a good question, and the answer is 
no, for this reason--not to be unhelpful--because we do 
independent surveys with parents all the time who say that this 
sticker actually is a very useful tool for them. The reason----
    Senator Lieberman. Well, I am sure it is useful, but I am 
just saying it can be more useful.
    Ms. Rosen [continuing]. Let me finish--the reason is this. 
John Denver for years complained about the fact that radio 
stations and people yelled at his song, ``Rocky Mountain 
High,'' because they decided it was a drug song, because that 
word ``high'' to some people meant drugs and to other people 
meant the crispness of the mountain air. Now, unlike motion 
pictures and unlike television and unlike video games, where 
you have a connection of the actual what it is--you can see it, 
you can see three breasts, two arms and a something--music is 
just so subject to interpretation, we just do not really see 
how you can get any more specific than this.
    Frankly, we do not see people crying out for the need for 
it, because the other difference between music and these 
products is that now, most lyrics are printed in these albums, 
as you can see; people have made no attempt to hide these 
words. You can read the lyrics before your child listens to the 
album, and if you do not like it, you can send it back.
    Senator Lieberman. Can you read the lyrics before you buy 
the album?
    Ms. Rosen. Some stores let you open it right there----
    Senator Lieberman. But generally not.
    Ms. Rosen [continuing]. But I am not in charge of retails. 
I will tell you this, that every retailer we have spoke to who 
subscribes to the National Association of Recording 
Merchandisers Association says that they take back records if 
parents do not like them. If it is too violent, if it is too 
offensive, if they thought it should have had a sticker and it 
did not, they take it back.
    Senator Lieberman. Well, I want to ask you to, if you 
would--we are crying out, and I can tell you that a lot of 
parents that I am talking to in Connecticut and elsewhere 
around the country are crying out--if you would take that back 
to your board and ask them to consider it. Tell us--you can 
distinguish--I mean, art is art, but good God, on these record 
albums, the stuff we read from today, and a lot of stuff that 
we have not had the guts to read from because it is so violent 
and vulgar--you can distinguish between violence and vulgarity, 
abuse of women, subjects like pedophilia that are in some of 
the albums.
    I ask you to do that, and I ask you to go back one more 
time--and Senator Brownback and I are going to keep this up, 
not for legislation, but just to continue to focus on what is 
on these albums--and ask your companies, which are great 
companies, making a lot of money, and the distinguished people 
at the top of those companies to ask themselves to forsake a 
little of that money in the public interest and in the interest 
of their country and the kids of the country.
    I repeat what I said at the beginning. You have a job to 
do, and I understand that. But I am disappointed because in 
your testimony today, I have not seen or heard a movement an 
inch away from ``We are doing as much as we can do. We are not 
responsible. We are not going to give you better labels. This 
is all art.''
    Ms. Rosen. I am sorry if I have disappointed you, Senator. 
I think it is also important to point out that unlike most 
other entertainment products, music is not a product of a 
corporation. Music is an artist's vision. And what this 
Subcommittee could hear from and should have--and you know, 
Senator, I have encouraged you to for many years--to meet with 
artists and find out what it is they are talking about, 
understand what their motivations are, talk more to young 
people who listen to this.
    This is not about the corporate relationship between you 
and me; this is about whether or not music is really having the 
kind of impact on young people that you suggest, or whether it 
really is artists' expression of what is going on in their 
lives.
    Senator Brownback. I hope we can have some future hearings 
and have some of those artists. We were limited on time for 
this hearing today; we are getting toward the end of the 
session, so we were not able to be as broad as we could.
    I also want to say that, as you have noted, and I agree, 
that much of today's popular music is very good. You are 
catching the grief for a certain segment, but we do hope that 
you will look carefully at those items, because I think there 
are things that can be done that could be helpful to all.
    Thank you for being here. I appreciate very much your 
testimony, and the good things that many of your companies are 
doing, but I hope you will take a look at some of the rest of 
the items.
    Senator Brownback. Our final panel will be Dr. C. DeLores 
Tucker. Dr. Tucker is Chair of the National Political Congress 
of Black Women. She has been actively involved in protesting 
the lyrics of violent songs out of concern for their effects on 
the inner-city community.
    We also welcome Professor Donald Roberts. Dr. Roberts is 
the Thomas Moore Stork Professor of Communications at Stanford 
University. His new book entitled, ``It's Not Just Rock n' 
Roll,'' is considered to be one of the definitive works on the 
impact of music on youth behavior, and it is due to be released 
later this month.
    We appreciate very much our panelists being here. I believe 
we have a vote scheduled at 2:30. Not to make our witnesses 
shorten their statements, but we can include your written 
statements in the record in their entirety, and if you can 
summarize, we would appreciate that, so we will have time to 
both hear your testimony and be able to ask some questions.
    Dr. Tucker, thank you very much for joining us. You have 
been involved in this for some time. We look forward to your 
testimony.

    TESTIMONY OF C. DELORES TUCKER,\1\ CHAIR, THE NATIONAL 
    POLITICAL CONGRESS OF BLACK WOMEN, INC., SILVER SPRING, 
 MARYLAND, ACCOMPANIED BY CHAD SISK, PHILADELPHIA, PENNSYLVANIA

    Ms. Tucker. Thank you, Senator Brownback, and thank you, 
Senator Lieberman, for having this hearing today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Tucker appears in the Appendix on 
page 83.
---------------------------------------------------------------------------
    I would like to share, if I could, some of my time with a 
young man, 14 years of age, Chad Sisk.
    Senator Brownback. Please, come on up and have a seat.
    Ms. Tucker. Just before I came over here today, I heard on 
TV this statement: ``Kids are like sponges and absorb messages 
like their TV snacks. Children between 2 and 5 watch more TV 
than any other groups, and more violence is shown during kids' 
shows than on prime TV.'' A passion that drives and motivates 
me is to stop these messages from being absorbed like sponges 
by our children.
    The question was raised about who owns and distributes the 
music of Marilyn Manson. I was to testify yesterday at the 
Seagrams stockholders' meeting in Canada. Because of illness 
and my doctors preventing my traveling to Canada, my husband 
testified for me, and he addressed Mr. Bronfman, Sr., and the 
entire 1,500 or more who attended the stockholders' meeting and 
challenged them, as you are providing us now a chance to 
challenge the ``Big Six'' that continue to spread these 
messages of disease, and not only suicide, but death and 
carnage, to many of our children--and not only to our children, 
but to our culture and all the values we hold so dearly in this 
Nation and in the world.
    I speak as Chair of the National Political Congress of 
Black Women, but more than that, for over 100 organizations, 
including the World Council of Churches, the Congressional 
Black Caucus, and many, many other organizations.
    I am pleased that this arm of Congress has taken the time 
to address the urgent problem of the social impact of music 
violence, a subject in which we have been engaged for more than 
5 years in a relentless struggle to persuade the giant music 
industry to stop the production and worldwide distribution of 
violent, pornographic, misogynistic gangsta rap music.
    Those malicious lyrics grossly malign black women, degrade 
the unthinking young black artists who create it, pander 
pornography to our innocent young children, and hold black 
people, especially young black males, universally up to 
ridicule and contempt, and corrupt its vast audience of 
listeners, white and black, throughout the world.
    I am filled with hope and anticipation because this 
congressional body is holding a hearing. I trust and pray that 
your Subcommittee will follow through with positive action to 
save our children from the cultural scourges that are besieging 
them. I applaud the action Congress took to protect children 
from the cultural filth on the Internet--but there are so many 
children who have no Internet, who have no home, who have no 
parents like most of us have, to protect them.
    We say that action must be taken to curb and control the 
proliferation of this vile, demeaning and misogynistic music. 
We are not talking about censorship. Instead, we are talking 
about establishing guidelines for more responsive and 
responsible corporate citizenship. A corporation must be 
granted authority by a governmental body in order to exist. No 
corporation should be allowed to exist if engaged in activities 
that contaminate and infect the minds of children. We protect 
whales, we protect owls, we protect rivers. There are already 
laws in existence that protect children from child pornography 
and exploitation, but not from purchasing this music.
    I beg of this body to clarify and strengthen the existing 
laws on the books so there is no doubt as to their purpose and 
intent. I have met with the Justice Department about doing just 
that. There are relevent laws that already exist. Let us make 
them work for our children.
    We simply want some means or measures to provide an 
exception to freedom of speech, just as the classic yelling 
``Fire!'' in a crowded theater is prohibited. We want to bring 
a return of civilized discourse to our musical art. When I met 
with the Justice Department, I took them proof that this music 
meets the Miller test--it is offensive and can be stopped.
    For black women, the depressing existence of drugs, 
violence and death in the black inner cities of this country is 
alarming. We are the grandmothers, the mothers, the sisters, 
the aunts, the cousins, the sweethearts, the wives, the family 
friends of the targeted black male--fathers gone, along with 
hope and jobs; streets filled with drugs, violence and death. 
Those escaping this are headed for a new address--prisons--
jails that are bulging with young black men and, now, an 
increasing number of young black women. Right here in this 
city, for over 60 percent of young black males ages 16 to 24, 
and in Baltimore, and all of our major urban cities, we have 
what I call the ``3-P plague'' operative. Sixty percent are 
either in prison, on parole or on probation.
    During the past 5 years since the corporate moguls of the 
music industry started spending millions to promote and 
distribute music that teaches kids that it is cool to kill, it 
is cool to use drugs, it is cool to gang-rape girls and 
denigrate women in the most vulgar and violent ways, jails are 
bulging, and teenage drug use has increased four-fold.
    Tupac Shakur told the young kids: ``It is cool to smoke and 
use drugs. I need a smoke right away. I need a smoke now. It is 
the American way.''
    It was revealed on the ``Geraldo'' show yesterday that the 
number of 14- to 17-year-olds committing murder in this country 
has more than doubled since 1985. This is when the first form 
of gangsta rap was introduced. It was also revealed yesterday 
on his show that the number of teens who committed murder hit a 
10-year high in 1993, and 1993 is when we started this crusade. 
That is when Tupac Shakur and Snoop Doggy Dogg were the heroes 
of our young people, telling them to ``do it (sex) doggy-
style,'' telling them in one song ``her body's beautiful. I'm 
thinking rape . . . slit her throat and watch her shake.'' 
Telling them that it is better to rape and kill and steal and 
take drugs than it is to go to school--``F'' school, ``F'' 
homework, ``F'' the teachers, ``F'' your parents, kill your 
parents.
    Furthermore, 50 percent of all violent juvenile crime 
occurs between 2 and 8 p.m. on school days--50 percent. That is 
why we need to look at latchkeying children to a better place 
than the street and places where there is no parental care 
because one parent in too many homes is working, and no one is 
at home.
    Again, we say that we are not trying to tell the record 
industry how to conduct their business. We only want them to 
transform it, to stop it from the production of filth that 
demeans us as a race, corrupts our children and spreads this 
noxious poison.
    But listening to the recording representatives here today 
(RIAA), as you quite acutely observed, Senator Lieberman, they 
seem to have no care at all about the harm that they are doing. 
Yet, when I wrote Mr. Bronfman, Sr., the chairman of Seagrams, 
expressing my dismay about his having purchased 50 percent of 
Interscope from Time Warner, he sent me a letter and said, ``We 
have purchased it with the understanding that we will not 
distribute any music that is offensive to anyone.'' But then, 
shortly thereafter, they put out ``Makaveli,'' which not only 
offended me as a black woman, teaching our children again to 
kill and to be called ``niggers,'' but also insulted my own 
faith and the faith of others, condemning it, one song saying, 
``Hail Mary, Hail Nigger.'' This is wrong, and since we have 
brought this to his attention, nothing has changed. In fact, 
they have had the greatest increase in their prof- 
its from Interscope because of the sale of this music that is 
destroying our children.
    We want the industry to respect us like they do others. 
When pop star Michael Jackson included some words in his album, 
``They don't care about us,'' that our Jewish friends 
considered anti-semitic, they protested. Michael Jackson said 
two words offensive to the Jewish people--``kike me'' and ``Jew 
me''--and the Jewish leaders went to Sony, and the president 
said, well, it must have slipped through. But they protested, 
the CD was recalled, and Michael Jackson was taken off MTV and 
VH-1. I wish our African-American community and all communities 
would protest whenever any music is offensive to anyone; we 
should not have offensive music like this in our society. We 
should respect everyone. We want the industry to treat our 
complaints with the same promptness and respect as they treated 
those of our Jewish friends.
    I applaud the Jewish leaders for their swift action and 
have challenged our black leaders to do the same. Based on that 
episode, one can only conclude that the ``corporate gangstas'' 
in the entertainment suites, the true cause and propagators of 
this filth, not the young ``gangstas'' in the streets who are 
exploited, are merely the victims of the converging malevolent 
forces.
    As I have said time and time again, the drug trade in the 
black community is fueling much that is ravaging our young 
people in abandoned communities that have already been savagely 
raged. I have said from the beginning that this music is drug-
driven, race-driven, greed-driven, and violence-driven.
    The wealthy mavens of the record industry--for example, Ted 
Field, heir to the Marshall Field fortune and owner of 
Interscope Records, is the only one that I have seen, at least 
as reported in The Wall Street Journal, say, ``I love this 
gangsta rap stuff,'' and no matter who does not like it, they 
can ``kiss his a-s-s.'' Well, I have not heard any gangsta 
rapper saying that. He is the only one, and he bankrolled Death 
Row. Our protests resulted in Time Warner getting rid of 
Interscope. Our protests also resulted in Thorn EMI ceasing 
their negotiations to buy Interscope. And now I am challenging 
Seagrams to stop producing gangstra/porno rap music and join 
with all of us who want to save our children from hearing shock 
rockers Marilyn Manson, 9-Inch Nails, and others who are 
carrying these nasty, satonic, nihilistic messages to our 
children.
    I want to say this in closing. The effects of this music on 
children are evident from a quote in a letter from a prisoner 
who wrote me when I first started this crusade and said: ``I am 
in prison right now here in Washington, D.C. I started 
listening to rap 3 years ago. I am in prison now for 25 years 
because I started listening to this music. They made it sound 
so good and look so real that I would drink and smoke drugs, 
just like on the video, and I would listen to the music and put 
myself in the place it speaks of. My 'hood girls, whom God gave 
to please me and multiply the Earth with respect, became 'hos 
and bitches. What is so bad is that they accepted it. You know 
why? Because they put themselves in the video too, and the 
guns, the money, the cars, the drugs and men became reality. 
And because good children are destroying themselves, because of 
lack of knowledge, we begin to think that this is the only way 
we could be somebody. I mean, everybody wants to be somebody, 
and look where I am. But please continue to press the issue. 
May God be with you in his name. Amen. Love always, and God 
love you for what you are trying to do.''
    And then, on the other side of the ocean, many of you might 
have read about two well-bred little girls in France who 
listened to Kurt Cobain just like the son of the gentleman who 
was here today listened to Marilyn Manson. These 12- and 13-
year old girls told their 14-year-old friend that they were 
going to kill themselves. He did not believe it, so he left 
them. Later on, he said, Let me go and check on them, and they 
had killed themselves listening to Kurt Cobain--in France.
    So this is not just in our ghetto areas. This is universal.
    Finally, I want to show you just what this Marilyn Manson 
is all about. In this poster, he is with something I have never 
seen before, with two tubes extending from his genitals going 
into the mouths of two young people kneeling at his side. This 
is from ``Monitor,'' magazine, which rates the music from 
Hollywood of the ``Big Six'' distributors. An editorial by the 
Publisher, Charles Gilreath, analysis of Mr. Marilyn Manson 
(who derived his name from Marilyn Monroe and Charles Manson, 
the serial killer) said the following: ``Manson enjoys 
pandering to youth on the verge of not knowing what their 
sexuality is.'' His fascination with kids is echoed by Manson 
himself, who has stated in interviews that he has a symbiotic 
relationship with 14-year-old boys, who make up the bulk of his 
audience. Although some dispute his claims, saying that young 
girls are also voicing their approval, one thing is certain--
Manson music, which is overtly laced with juvenile lure, 
catchwords such as ``cotton candy'' and ``sweets,'' is 
definitely not being packaged for mature audiences. He just 
finished opening for 9-Inch Nails and is currently touring with 
Ozzie Osborne. Manson has perfected his on-stage antics, which 
include performing oral sex on a male guest, or strapping on a 
dildo''--d-i-l-d-o; and mimicking masturbation while singing a 
tune penned by convicted killer Charles Manson. It is further 
stated in the magazine: ``Raise your kids better, or I will 
raise them for you. I want to raise kids in truth and tell them 
that everything is a lie--there is no truth.''
    Senator Brownback. Ms. Tucker, if I could, since this has 
shortened the hour, and we have set witnesses here--Professor 
Roberts came a long way to testify--if we could, we will try to 
get to Chad, but I would like to go if possible to Professor 
Roberts at this time, because we do have a vote coming up.
    Ms. Tucker. I am sorry I took so much time.
    Senator Brownback. Professor Roberts, you have a book 
coming out soon on this topic. We would love to hear your 
testimony.

TESTIMONY OF DONALD F. ROBERTS, THOMAS MOORE STORK PROFESSOR OF 
              COMMUNICATIONS, STANFORD UNIVERSITY

    Mr. Roberts. Thank you, Mr. Chairman.
    I am here, I think, because I have spent the last 30 years 
of my life studying children and media--media content of all 
kinds. A colleague of mine, Dr. Peter Christianson, from Lewis 
and Clark College in Portland, and I have a book coming out 
next week called, ``It's Not Only Rock n' Roll: Popular Music 
in the Lives of Adolescents.'' The core thesis of this 
particular book is that it is impos- 
sible to understand adolescents in the United States today if 
you do not understand their relationship with popular music. It 
is at the heart of adolescent culture.
    I have submitted a written statement, and I will let that 
stand. I am going to skip over a few comments I had to say 
about the content. We have heard a great deal about the content 
today.
    I just want to stress that we are talking about two genres 
out of--well, Billboard now charts 20--and that kids are spread 
out across these genres. By the time they reach adolescence, 
they generally focus on one or two, and that is where they 
listen. So there is a large audience for rap and there is a 
large audience for heavy metal, but it is by no means the 
largest audience; kids listen across all of the different 
genres of music.
    Most kids hear some of it, but a lot of kids hear just some 
of it and do not pay a lot of attention. So, who is the 
audience? Well, in a sense, there are two different audiences--
heavy metal and rap. They are both very much male-oriented 
music, but there, the similarities go away.
    For heavy metal, the predominance of fans are largely 
young, white males. By ``young,'' I am talking about early to 
mid-adolescence and then on up through adolescence. We can find 
examples of girls and African-Americans and Hispanics 
listening, but they really form a minority of that particular 
audience.
    For the most part, the bulk of the audience for heavy metal 
is probably what we would call fairly normal, pretty good kids, 
and there is not much problem with them. However, it appears 
that this particular subgenre of music has a particular 
attraction for kids who have problems--troubled kids. They are 
alienated from school, they are alienated from their parents, 
they have expressed relatively low satisfaction with family 
relations. They are kids who tend to be risk-takers or 
sensation-seekers. Heavy metal fans compared to fans of other 
kinds of music tend to engage in more reckless behaviors, like 
marijuana use, cocaine use, drunk driving, casual sex. If we 
look at their beliefs and attitudes, it turns out that, 
relative to the fans of other kinds of music, heavy metal fans 
express lower levels of trust in others; they hold libertarian 
beliefs, which is sort of ``anything goes''; they tend to be 
more Machiavellian, that is, they are engaged in social 
behaviors that are manipulative or cynical; and they have fewer 
religious beliefs.
    The real heavy metal fan generally expresses more 
permissive sexual attitudes, manifests a lower level of respect 
for women, gives lower estimates of the frequency of date rape 
and higher estimates of the general rate of sexual activity in 
the general population.
    As I said, troubled youth are particularly drawn to this 
type of music. I do not mean to imply a causal connection here. 
Indeed, I think most of the kids who manifest these attitudes 
and behaviors probably had them before they were even old 
enough to listen to heavy metal, but once there, they are 
attracted, and they become the real fans. They are fans in the 
true sense of the world. They are ``fanatical.'' They are 
highly committed to the music, very involved in it. When you 
interview them, they identify with the performers. When you ask 
them who their role models are, they are more likely than fans 
of any other group of music to label a heavy metal performer.
    Knowing that an adolescent is a heavy metal fan does not 
mean, generally, that he has these characteristics; but knowing 
that an adolescent is somewhat troubled, is alienated, is at 
risk, makes it a very good bet that that youngster will in fact 
be a heavy metal fan.
    The problem here is that these are the kids who may be most 
susceptible to being influenced by the messages in the music. 
They are at risk in the first place, and they are willing to 
say right up front, ``Those are my role models.'' So our worry 
is that they are particularly susceptible.
    Now, the rap audience is a little bit different, not 
surprisingly. Rap is the dominant favorite among African-
American males. In the studies I have seen, as many as 75 to 80 
percent of adolescent African-American males list this as their 
favorite.
    However, it is not the dominant favorite, but it is a big 
favorite among young white males--ironically, young white 
suburban males. The 14- and 15-year-old white males from Edina 
is very likely to be a real fan of rap.
    Girls of both races like the music, but they do not like 
the lyrics, they do not like the messages. They like rap 
because it is vibrant, because it is very danceable; that is 
what appeals to them most.
    The kinds of alienated attitudinal things that I just 
described for heavy metal do not seem to hold up for the fans 
of rap, but in particular, if you assume that most of the 
African-American males are there, listening to rap, you would 
not expect to find these associations because all of the kids 
are into rap.
    African-American youth, when you interview them, love the 
music for the sound, but they also love the messages, and the 
more of a fan they are, the more into the messages they are. 
The white youth love it for the sound; they do not pay a great 
deal of attention to the messages. However, once they are there 
listening, it provides them with something that they do not 
otherwise have access to. For a lot of white suburban youth, 
rap provides a window to a culture that they do not have a lot 
of contact with. They are in a sense engaging in something that 
we have called ``cultural tourism.'' They are getting a sense 
of ``this is what a black neighborhood--this is what a black 
male is like,'' from that music. And I think one of the things 
that we have to be very concerned about when we are talking 
about 14- or 15-year-old white kids who live in areas of this 
country that do not have a lot of contact is that if that is 
the only picture they are getting of the black culture, they 
are getting quite a distorted picture.
    Let me turn to effects, which is what we are really 
interested in here. I want to note that social scientists 
recognize that the primary concern is behavior, but when we are 
talking about the effects of such things as violence and 
sexuality, it is very difficult to study behavior. We cannot 
expose kids to the music and then go and see how many fights 
they start, how many women they attack.
    So that what a lot of these studies do is rely on 
attitudinal measures and perception measures--``What do you 
believe,'' and so on.
    What I am going to describe to you are experiments. 
Identical groups of kids are exposed either to the music we 
consider to be problematic, music that does not carry these 
messages, or to no music, and then you compare responses after 
they have gone through this exposure.
    When you do this in the studies that have been conducted, 
you discover that exposure to the music with this kind of 
message does make a difference in how they perceive social 
interaction, social relationships, and in their attitudes.
    One other qualifier. The effects that are found in the 
literature are strongest when the kids are exposed to music 
videos as opposed to just the straight lyrics. The picture 
brings with it a good deal more information. One of the 
interesting things about this, however, is that once an 
adolescent has seen the music video, when he subsequently hears 
the music, he replays the music video in his head. Those 
pictures are with one from then on. We tried to run an 
experiment 2 years ago where we compared kids who saw the video 
and kids who just heard the lyrics, and we could not run the 
experiment because all the kids who just heard the lyrics told 
us, ``Well, I could not understand the words at first, so I 
just remembered the video.'' So you cannot even do those 
comparisons anymore.
    So a lot of what I am talking about is response to videos. 
Specifically, videos laced with many violent images have been 
demonstrated in experiments to make adolescent viewers more 
antagonistic in their orientation toward women, more likely to 
condone violence in themselves and in others. That is to say, 
after viewing, they were likely to say, ``I would engage in 
this kind of behavior, that kind of behavior, I would devalue 
women a bit more.''
    Antisocial videos have been shown to increase the 
acceptance of subsequently observed antisocial behavior. If one 
watchs a video that is pretty violent, one is more accepting of 
violence when it is seen later.
    Highly gendered stereotype videos increase the acceptance 
of gender stereotyped behavior subsequent to exposure.
    Sexually charged videos have been shown to lead viewers--
and in all of these experiments I am talking about for the most 
part males, although a couple have been run with females, from 
about the age of 12 or 13 through college; I am talking about 
late adolescence--sexually charged videos lead viewers to 
perceive subsequently observed ambiguous behavior as more 
sexual. They also lead viewers to be more accepting of 
premarital sex and otherwise sexually permissive.
    At least one case study, not an experiment, reported in the 
medical literature very recently--I just came across it a week 
ago--reported that in a situation where teenagers and young 
adults were locked up in a treatment facility, juvenile 
delinquents and kids with other problems, they were having a 
great deal of difficulty with violence and kids attacking each 
other and attacking their caretakers. They removed access to 
any music videos--MTV, VH-1 and so forth--and the reports 
indicated that over a period of 3 or 4 weeks the violence in 
this treatment facility went down.
    A couple of conclusions, and then I will wind up. Findings 
and research on all kinds of media content leave little doubt 
that children, adolescents and adults learn a great deal from 
what they hear and see in the media, and it does not matter 
which medium we are talking about. Children, adolescents and 
adults do not make distinctions. A screen is a screen is a 
screen, whether it is a television screen, a video, a rental 
video, a motion picture or a computer screen. It certainly is 
no different for adolescents and the music media. Indeed, in 
our book, we contend that music media are probably most 
important to adolescents.
    Popular music is largely for, of, and by adolescents. It 
focuses on many of the issues that are central to their 
concern, many of which are taboo topics--for example, sex and 
cross-sex relationships--that parents, schools and churches do 
not do a very good job of handling. The media in general and 
music media in particular fill the void.
    Today, studies have shown that adolescents obtain most of 
their information, for example, about sex and sexuality from 
peers and from the media--from ignorance and more ignorance. 
And the music media, because of their focus on topics like 
that, are very adept at filling this need. They address these 
kinds of issues--interpersonal relations, how you treat a 
woman, sex and sexuality, when to use violence--they address 
those issues frequently, they are reviewed repeatedly, listened 
to repeatedly, and the consequences of the portrayed behaviors 
are typically positive and certainly never negative. Sex is 
usually safe, rudeness is cool, threats toward police or other 
authorities are rarely punished, violence is rarely punished, 
and indeed, tatoos are never for life.
    Perhaps most important, heavy metal and rap both attract 
kids to their audiences who may be particularly susceptible to 
influence--troubled, alienated white males in the case of heavy 
metal; angry, inner city African-American males in the case of 
rap.
    Given the nature of the content of so much of the music 
from these two genres in particular, some remarks made by 
Professor Albert Bandura, who originated what is known as 
``observational learning theory''--a theory that is probably 
most potent for explaining how children learn from the media--
about the likelihood that youngsters will learn from almost all 
the media to which they are exposed is particularly chilling. A 
couple of years ago, he wrote: ``After the capacity for 
observational learning has fully developed, one cannot keep 
people from learning what they have seen.'' The literature that 
we review in our book indicates that you cannot keep them, 
particularly adolescents, from learning what they have seen or 
what they have heard.
    Thank you.
    Senator Brownback. That was excellent testimony from both 
witnesses. I think that what we need to do is go to questions 
if we can at this point and some discussion back and forth.
    Dr. Roberts, you point to two sections of music that are 
particularly troublesome out of 20, and that you have really 
targeted and studied those, and then you said there is a 
particular group of individuals in those two sections that 
listen to that type of music that are most susceptible to the 
message, and I gather from what you are saying, acting out on 
that message, or at least having an attitudinal change by this 
message.
    What percentage of young people are we talking about? Is 
there any quantifiable----
    Mr. Roberts. Not that I know of. I could not hazard a 
guess. But you raise a very interesting issue, and the issue 
is: At what percentage do we get concerned? When I teach a 
course on this, and people say, well, it is just a few kids, I 
ask my class if they would, for example, change the First 
Amendment if I could prove--which I cannot--but if I could 
prove that something in the media caused one killing. And 
generally, nobody in the class will ever want to change the 
First Amendment on that basis.
    And then, I say, now, if I could prove that each year, 
something in the media caused 100,000 murders, if I could 
honestly prove that--and I cannot, but if I could--would you 
change the First Amendment? And I have discovered that most 
students in my classes, at 100,000 murders a year, would say 
yes.
    Now we have a couple of boundaries, and the issue becomes 
where do you start to get concerned. I think that probably, we 
are talking about a relatively small proportion of kids who are 
really going to act out, but a relatively small proportion of 
people commit murders in this country, and yet murder is a 
concern. A relatively small proportion of kids in this country, 
or adults, or anyone else, commit suicide, and yet we are 
concerned about it. So the fact that we might be talking about 
a couple of percent--and it may be higher, and it may be lower; 
I simply do not know--is begging the question; it is enough 
kids to be concerned about.
    Senator Brownback. I think you point this out well in 
studies. Are there going to be other studies that you know of 
in progress, looking at the impact of music and music violence 
on culture?
    Mr. Roberts. Well, there are always studies ongoing, but 
never enough. I do not want to wag my finger, but a few years 
ago, social science funding dried up, and a lot of these kinds 
of studies dried up. And until somebody decides that it is 
worth running these studies on a systematic basis, rather than 
have professors get four or five students to volunteer, you are 
going to get the occasional study. No one has been willing to 
put up the kind of funding that I think is needed to address 
these questions, regardless of what the answers are.
    Senator Brownback. Senator Lieberman, I think there is a 
vote coming up. We might want to proceed and wrap this up, so 
let me turn to you for questions.
    Senator Lieberman. Thanks, Mr. Chairman.
    First, Dr. Tucker, you have been a real national leader in 
this. It has been my honor to have worked with you and Dr. Bill 
Bennett along the way, and I thank you again for your 
predictably riveting, honest, and for me inspiring, testimony, 
and I only wish the folks from the record industry would hear 
and do something about it. But God bless you, and keep on going 
forward until we get the change we want.
    I do want to say, Dr. Roberts, that I think your work is 
very important--and maybe I say that because I find it 
validating--but it is validating of our concerns, the 
layperson-parental concerns that I bring to the table.
    First, it does strike me, although you do not have any 
reason to know, that we are talking about significant numbers 
here. The one Tupac Shakur record sold 5 million copies; 4 of 
the 15 that Drs. Tucker and Bennett and I targeted about a year 
ago sold a cumulative 7 million. So there are a lot of kids 
here.
    The other thing you have said here is that this music is 
mostly bought and listened to by early to mid adolescents, that 
the age restriction that Ms. Rosen testified to is not a 
reality in the stores.
    I am fascinated by the notion that it is children--and 
these are children, because they are under 18--who are 
susceptible, who are drawn to this music. It reminded me of a 
line from the Talmud that we should not put stumbling blocks in 
the path of the blind. It is common decency. Why would you put 
a stumbling block in front of someone who cannot see that they 
could fall over? To some extent what you are telling us is that 
we have kids out there who have vulnerabilities, and this music 
plays to and exacerbates their weaknesses and their 
vulnerabilities, and that makes it all the more urgent.
    So I just want to thank you for what you have done. I do 
not know if you have any response to what I have said. I hope 
your book is a bestseller, and I hope it shakes people up.
    I do want to say one thing--and we have worked on this 
together as a result of some of what we heard in earlier 
hearings--we have actually put into this year's Labor, Health 
and Human Services appropriations bill, if it ever breaks out 
of the gridlock it is in now, a directive, I believe it is to 
the National Institute of Child Development, to increase 
funding of academic studies, social science studies, of the 
impact of the media and messages in the media on behavior in 
our country. Hopefully--yes, ma'am?
    Senator Brownback. Dr. Tucker.
    Ms. Tucker. Senator, before you close, could I bring this 
young man forward?
    Senator Lieberman. Yes. Let us hear from Chad.
    Ms. Tucker. He can answer some of the questions you have 
raised. He has some tapes he has bought.
    Senator Lieberman. Good.
    Senator Brownback. We really need to be short on this. I 
know Chad has come some distance. Actually, if I could, Ms. 
Tucker, there are others in the audience who would like to 
testify, too, and I really think we need to conclude.
    Ms. Tucker. One point is that the parental advisory sticker 
did not stop him from, at the age 12, purchasing these records.
    Senator Brownback. That is a pertinent issue.
    Ms. Tucker. And Marilyn Manson was in his neighborhood this 
summer, and the young kids were lined up--black males, in 
skirts--for a Marilyn Manson concert. So I think that it is 
relevant to hear from a child.
    Senator Brownback. Would the witness identify himself?
    Mr. Sisk. My name is Chad Anthony Sisk, and I am from 
Philadelphia, Pennsylvania.
    Senator Brownback. Have you had trouble purchasing these 
CDs with the label on them?
    Mr. Sisk. Not at all.
    Senator Brownback. From major retail stores--where have you 
purchased them?
    Mr. Sisk. Sam Goody, Tower Records, and The Wall.
    Senator Brownback. Were you ever questioned about your age?
    Mr. Sisk. Never.
    Senator Brownback. Just if you had the money, you could 
purchase it. And these were albums with the actual label on 
them?
    Mr. Sisk. Yes.
    Senator Brownback. Did you see any warnings at the store 
that you were not to purchase these?
    Mr. Sisk. Not at all.
    Senator Brownback. Do you have friends who have had any 
difficulty purchasing these CDs?
    Mr. Sisk. Some have.
    Senator Brownback. Is that because some stores do actually 
look into and check on the age of the purchaser?
    Mr. Sisk. Not that many, but there are some in 
Philadelphia.
    Senator Brownback. Is it known what stores you can go to to 
purchase labeled records if you are under age?
    Mr. Sisk. Yes.
    Senator Brownback. How is that known?
    Mr. Sisk. Well, the stores where we can buy parental 
guidance CDs are, like, in The Gallery or something like that, 
maybe around the neighborhood. So kids just pass it on to each 
other where they can buy it from. That is basically it.
    Senator Lieberman. So, word-of-mouth among kids.
    Mr. Sisk. Yes.
    Senator Brownback. And it is just not a problem purchasing 
these CDs?
    Mr. Sisk. No.
    Senator Brownback. OK. Chad, thank you for coming. Do you 
have something else you would like to add to the Subcommittee--
if you have a written statement, we can take that for the 
record.
    Mr. Sisk. Well, there was a Marilyn Manson concert at the 
Electric Factory in my neighborhood in Philadelphia, and there 
was a bunch of kids--well, not kids, but they looked rather 
young, and the males had on skirts, and they had devil signs 
and things like that. The line was 3 blocks long, and they were 
all in my neighborhood, and this was at night--and one time, it 
was in the morning, too, but at night, it was for another 
concert--and it just really disturbed me to see them coming 
into my neighborhood with this. Sometimes, they would do 
violent things--sometimes. But it was just an embarrassment.
    Senator Brownback. Well, such as what sorts of violent 
things?
    Mr. Sisk. Well, some people might break a car window or 
something like that--not really hurt anybody, but cause 
distractions to the community--knocking on doors, screaming, 
and stuff like that, waking people up at all hours of the 
night, things like that.
    Senator Brownback. I appreciate very much the directness of 
the presenters and the people who have been present. I think 
this is a significant issue, and we will hopefully be able to 
have future hearings so that we can have other people present, 
because I think it is a significant issue, and I am glad 
Senator Lieberman joined us, that the presenters came forward. 
We are not asking for censorship, but we hope to get some 
dialogue going across the country, particularly amongst parents 
and their teenage children, and hopefully as well in some board 
rooms across this country, looking at this music.
    Thank you all very much. We are adjourned.
    [Whereupon, at 2:43 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] TH395.001

[GRAPHIC] [TIFF OMITTED] TH395.002

[GRAPHIC] [TIFF OMITTED] TH395.003

[GRAPHIC] [TIFF OMITTED] TH395.004

[GRAPHIC] [TIFF OMITTED] TH395.005

[GRAPHIC] [TIFF OMITTED] TH395.006

[GRAPHIC] [TIFF OMITTED] TH395.007

[GRAPHIC] [TIFF OMITTED] TH395.008

[GRAPHIC] [TIFF OMITTED] TH395.009

[GRAPHIC] [TIFF OMITTED] TH395.010

[GRAPHIC] [TIFF OMITTED] TH395.011

[GRAPHIC] [TIFF OMITTED] TH395.012

[GRAPHIC] [TIFF OMITTED] TH395.013

[GRAPHIC] [TIFF OMITTED] TH395.014

[GRAPHIC] [TIFF OMITTED] TH395.015

[GRAPHIC] [TIFF OMITTED] TH395.016

[GRAPHIC] [TIFF OMITTED] TH395.017

[GRAPHIC] [TIFF OMITTED] TH395.018

[GRAPHIC] [TIFF OMITTED] TH395.019

[GRAPHIC] [TIFF OMITTED] TH395.020

[GRAPHIC] [TIFF OMITTED] TH395.021

[GRAPHIC] [TIFF OMITTED] TH395.022

[GRAPHIC] [TIFF OMITTED] TH395.023

[GRAPHIC] [TIFF OMITTED] TH395.024

[GRAPHIC] [TIFF OMITTED] TH395.025

[GRAPHIC] [TIFF OMITTED] TH395.026

[GRAPHIC] [TIFF OMITTED] TH395.027

[GRAPHIC] [TIFF OMITTED] TH395.028

[GRAPHIC] [TIFF OMITTED] TH395.029

[GRAPHIC] [TIFF OMITTED] TH395.030

[GRAPHIC] [TIFF OMITTED] TH395.031

[GRAPHIC] [TIFF OMITTED] TH395.032

[GRAPHIC] [TIFF OMITTED] TH395.033

[GRAPHIC] [TIFF OMITTED] TH395.034

[GRAPHIC] [TIFF OMITTED] TH395.035

[GRAPHIC] [TIFF OMITTED] TH395.036

[GRAPHIC] [TIFF OMITTED] TH395.037

[GRAPHIC] [TIFF OMITTED] TH395.038

[GRAPHIC] [TIFF OMITTED] TH395.039

[GRAPHIC] [TIFF OMITTED] TH395.040

[GRAPHIC] [TIFF OMITTED] TH395.041

[GRAPHIC] [TIFF OMITTED] TH395.042

[GRAPHIC] [TIFF OMITTED] TH395.043

[GRAPHIC] [TIFF OMITTED] TH395.044


                                  <all>
</pre></body></html>
